        AUDIT OF THE 

 FEDERAL BUREAU OF PRISONS 

ANNUAL FINANCIAL STATEMENTS 

     FISCAL YEAR         2013 

      U.S. Department of Justice 

    Office of the Inspector General 

             Audit Division 


          Audit Report 14-09 

            February 2014 

 
            AUDIT OF THE FEDERAL BUREAU OF PRISONS 

                ANNUAL FINANCIAL STATEMENTS 

                       FISCAL YEAR 2013 


                 OFFICE OF THE INSPECTOR GENERAL

                    COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the Federal
Bureau of Prisons (BOP) for the fiscal years (FY) ended September 30, 2013, and
September 30, 2012. Under the direction of the Office of the Inspector General
(OIG), KPMG LLP performed the BOP’s audit in accordance with auditing standards
generally accepted in the United States of America. Effective for FY 2013, auditing
standards generally accepted in the United States of America use the term
“unmodified” opinion instead of “unqualified” opinion. The definition of the two
terms is substantially the same. An unmodified opinion means that the financial
statements are presented fairly, in all material respects, in accordance with
U.S. generally accepted accounting principles. The FY 2013 audit resulted in an
unmodified opinion on the financial statements. For FY 2012, the BOP received an
unqualified opinion on its financial statements (OIG Audit Report No. 13-09).

       KPMG LLP also issued reports on internal control over financial reporting and
on compliance and other matters. The auditors did not identify any material
weaknesses, nor did they report any significant deficiencies in the FY 2013
Independent Auditors’ Report on Internal Control over Financial Reporting Based on
an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards. No instances of non-compliance or other matters that are
required to be reported under Government Auditing Standards were identified
during the audit in the FY 2013 Independent Auditors’ Report on Compliance and
Other Matters Based on an Audit of Financial Statements Performed in Accordance
with Government Auditing Standards. Additionally, KPMG LLP’s tests disclosed no
instances in which the BOP financial management systems did not substantially
comply with the Federal Financial Management Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and made
necessary inquiries of its representatives. Our review, as differentiated from an
audit in accordance with Government Auditing Standards, was not intended to
enable us to express, and we do not express, an opinion on BOP’s financial
statements, conclusions about the effectiveness of internal control, conclusions on
whether BOP’s financial management systems substantially complied with the
Federal Financial Management Improvement Act of 1996, or conclusions on
compliance and other matters. KPMG LLP is responsible for the attached auditors’
reports dated December 3, 2013, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with auditing standards generally accepted in the United States
of America.
This page intentionally left blank. 

            AUDIT OF THE FEDERAL BUREAU OF PRISONS 

                ANNUAL FINANCIAL STATEMENTS 

                       FISCAL YEAR 2013 


                                TABLE OF CONTENTS

                                                                                           PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS .................................................. 3 


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON THE FINANCIAL STATEMENTS .................................................. 19 


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING BASED ON 

     AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE

     WITH GOVERNMENT AUDITING STANDARDS ......................................... 23 


  REPORT ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF 

     FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH 

     GOVERNMENT AUDITING STANDARDS.................................................. 25 


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS ............................................................ 28 


  CONSOLIDATED STATEMENTS OF NET COST .............................................. 29 


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ..................... 30 


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ................................ 32 


  NOTES TO THE FINANCIAL STATEMENTS.................................................... 33 


REQUIRED SUPPLEMENTARY INFORMATION 


  CONSOLIDATED DEFERRED MAINTENANCE AND REPAIRS ............................ 69 


  COMBINING STATEMENTS OF BUDGETARY RESOURCES 

    BROKEN DOWN BY MAJOR BUDGET ACCOUNT ....................................... 70 


OTHER INFORMATION


  COMBINED SCHEDULE OF SPENDING ........................................................ 75 


  TREASURY SYMBOL MATRIX ..................................................................... 76 


  PRISONER CAPACITY REQUIREMENTS ........................................................ 77 


  OPERATING LEASES AS OF SEPTEMBER 30, 2013 ....................................... 78 

This page intentionally left blank. 

u.s. DEPARTMENT OF JUSTICE 

      BUREAU OF PRISONS 


           MANAGEMENT'S
       DISCUSSION & ANALYSIS
            (UNAUDITED)




                - 1­
This page intentionally left blank. 





               -2-
               Management’s Discussion & Analysis



                                 U.S. Department of Justice 

                                     Bureau of Prisons 

                             Management’s Discussion & Analysis



MISSION

It is the mission of the Federal Bureau of Prisons to protect society by confining offenders in the
controlled environments of prisons and community-based facilities that are safe, humane, cost-
efficient, and appropriately secure, and that provide work and other self-improvement
opportunities to assist offenders in becoming law-abiding citizens.

ORGANIZATION STRUCTURE

The Bureau of Prisons (BOP) encompasses the activities of the Trust Fund and appropriated
activities. It does not include the Federal Prison Industries, Inc. (FPI) (also called UNICOR)
which is a separate reporting component of the Department of Justice (DOJ).

As of September 30, 2013, the BOP was comprised of 119 institutions, six regional offices, two
staff training centers, 28 community corrections offices, and a Central Office, or headquarters, in
Washington, D.C. The Executive Office of the Director provides overall direction for agency
operations, with nine central office divisions, each led by a member of the BOP’s Executive
Staff, providing operational and policy direction. The Central Office manages the security and
correctional operations of the BOP, the medical and psychiatric programs, and food and
nutritional programs. Additionally, the Central Office plans for the acquisition, construction,
staffing of new facilities, oversees budget development and execution, contracting, property
management, and financial management. Additional operational support and direction are
provided for community corrections and detention programs, legal counsel, public affairs,
information resources, and human resources management.

The National Institute of Corrections (NIC), one of the BOP’s Salaries and Expenses
activities, provides technical assistance and training for state and local correctional agencies
across the nation. The NIC supports the BOP’s goal of building partnerships with community,
state, local, and other entities. The Program Review Division (PRD) performs oversight over
the BOP's programs through a rigorous review process that measures program effectiveness and
adequacy of internal controls. The Administration Division (ADM) provides resources and
support for the BOP to perform effectively and efficiently. This includes the development of
budget requests; the stewardship of financial resources; procurement and property management;
the coordination and analysis of information related to capacity; the selection of sites for new
prison construction; the design and construction of new correctional facilities; and the renovation
and maintenance of existing facilities. The Correctional Programs Division (CPD) develops

     U.S. Department of Justice



                                               -3-
               Management’s Discussion & Analysis



activities and programs designed to appropriately classify inmates, eliminate inmate idleness,
and develop the skills necessary to facilitate the successful reintegration of inmates into their
communities upon release. The Health Services Division (HSD) has responsibilities in medical
care, safety and environmental health, and food services. The health care mission is to deliver
necessary health care to inmates. The occupational safety and environmental health mission is to
provide a safe and healthy environment for staff and inmates. The food service mission is to
provide healthy and appetizing meals that meet the needs of the general population. The Human
Resource Management Division (HRMD) is designed to oversee and administer personnel
policy and programs developed to address the needs of Bureau employees covering all areas of
personnel management. The Industries, Education, and Vocational Training Division
(IE&VT) encompasses the FPI program and the Bureau's Education and Inmate Transition
Program. The Education Branch oversees the Bureau's recreation programs and the Bureau's
education and vocational training programming. The Inmate Transition Branch works to
enhance inmates' post-release employment opportunities and also oversees the Bureau's
Volunteer Management Program. The Information, Policy and Public Affairs Division (IPPA)
collects, develops, and disseminates useful, accurate, and timely information to BOP staff, DOJ,
Congress, other government agencies, and the public. The Office of General Counsel (OGC)
provides effective legal advice, assistance, and representation to officials of the Federal Bureau
of Prisons.

The Trust Fund was created in the early 1930s to allow inmates a means to purchase additional
products and services above the necessities provided by appropriated Federal funds (e.g.,
personal grooming products, snacks, postage stamps, telephone services, and electronic
messaging). The Trust Fund is a self-sustaining trust revolving fund account that is funded
through sales of goods and services to inmates.

The BOP is subdivided into six geographical regions (see Attachment A), each managed by a
Regional Director. Regions are staffed with personnel who provide operational guidance and
support to the field locations in management and administrative areas such as financial
management, budgeting, technical assistance, personnel, and correctional management.

In the fiscal year 2013, the BOP operated 119 institutions spanning four main security levels in
its efforts to provide secure and cost effective housing to a broad spectrum of offenders.
Institutions are assigned a security classification based in part on the physical design of each
facility. The four security levels are minimum, low, medium, and high. In addition,
administrative facilities are institutions with special missions, including: detention of non-
citizen or pretrial offenders, treatment of inmates with serious or chronic medical problems, and
containment of extremely violent or dangerous inmates. Administrative facilities are capable of
housing inmates of all security categories.




     U.S. Department of Justice



                                              -4-
                Management’s Discussion & Analysis



FINANCIAL STRUCTURE

The BOP was provided two appropriations by Congress for fiscal year 2013: Salaries and
Expenses and Buildings and Facilities. The Salaries and Expenses (S&E) portion includes
annual and multi-year appropriations, while Buildings and Facilities (B&F) is a no-year
appropriation. The Trust Fund receives spending authority from offsetting collections for
revenue earned through the sale of goods and services.

The S&E appropriations are annual and multi-year appropriations that support costs associated
with the care and custody of all Federal offenders in Federal institutions and contract facilities,
and the maintenance and operational costs associated with the upkeep of Federal facilities,
regional offices, staff training centers, and administrative offices.

The B&F appropriation is a no-year appropriation that supports site planning, acquisition, and
construction of new facilities. The B&F appropriation also supports the remodeling, renovating,
and equipping of existing facilities for penal and correctional use.

ANALYSIS OF FINANCIAL STATEMENTS

Highlights of the financial and budgetary information presented in the financial statements
follows.

Assets: The BOP’s Consolidated Balance Sheets as of September 30, 2013, shows $7.311
billion in total assets, a decrease of $487 million from the previous year’s total assets of $7.798
billion. General Property, Plant and Equipment, Net was $6.240 billion, which represents 85
percent of total assets.

Liabilities: Total BOP liabilities were $2.021 billion as of September 30, 2013, an increase of
$33 million from the previous year’s total liabilities of $1.988 billion. Actuarial FECA liabilities
were $956 million and Accounts Payable was $383 million, which represents 47 percent and 19
percent of total liabilities respectively.

Net Cost of Operations: The Consolidated Statements of Net Cost presents the BOP’s gross
and net cost by strategic goals 2 and 3. The net cost of the BOP’s operations totaled $7.204
billion for the fiscal year ended September 30, 2013, an increase of $107 million (1.5 percent)
from the previous year’s net cost of operations of $7.097 billion.




     U.S. Department of Justice



                                               -5-
               Management’s Discussion & Analysis



Consistent with the Government Performance and Results Act (GPRA), the BOP has a formal
strategic planning process that feeds into the Department’s strategic plan. The BOP sets goals,
measures performance, and reports annually on its actual performance compared to its goals.
The Office of Management and Budget (OMB) Circular A-136 and the Statement of Federal
Financial Accounting Standard (SFFAS) No. 15, Management’s Discussion and Analysis –
Standards, require agencies to present the most significant performance measures related to
information on major goals from the agency’s strategic plan. Reported measures are also linked
to the DOJ Strategic Goal 2, “Prevent Crime, Protect the Rights of the American People, and
Enforce Federal Law,” and Strategic Goal 3, “Ensure and Support the Fair, Impartial, Efficient,
and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International
Levels.” Tables 1 and 2 summarize the activity on the BOP’s Consolidated Statements of
Changes in Net Position and Consolidated Statements of Net Cost. The tables show the funds
provided to the BOP for the fiscal years ended September 30, 2013 and 2012 for the purpose of
achieving the strategic goals.




     U.S. Department of Justice



                                              -6-
                 Management’s Discussion & Analysis




                                 Table 1. Source of BOP Resources
                                      (Dollars in Thousands)

                              Source                                  FY 2013          FY2012        Change %
Earned Revenue                                                    $     419,593    $     410,305        2%
Budgetary Financing Sources
 Appropriations Received                                              6,920,217         6,641,281       4%
 Appropriations Transferred-In/Out                                       87,214              (562)   15,619%
 Other Adjustments and Other Budgetary Financing Sources               (540,312)          (45,000)    1,101%
Other Financing Sources
 Donations and Forfeitures of Property                                      3                  30      -90%
 Transfers-In/Out Without Reimbursement                                   132             151,645     -100%
 Imputed Financing from Costs Absorbed by Others                      225,500             238,018       -5%
Total                                                             $ 7,112,347      $    7,395,717       -4%



                             Table 2. How BOP Resources are Spent
                                     (Dollars in Thousands)

                     Strategic Goal (SG)                          FY 2013     FY 2012                Change %
SG 2: Prevent Crime, Protect the Rights of the American People,
and Enforce Federal Law
                                                     Gross Cost $     7,907 $      7,242
                                          Less: Earned Revenue             -            -
                                                       Net Cost   $       7,907    $         7,242     9%
SG 3: Ensure and Support the Fair, Impartial, Efficient, and
Transparent Administration of Justice at the Federal, State,
Local, Tribal, and International levels
                                                     Gross Cost   $ 7,615,902      $    7,499,577
                                          Less: Earned Revenue        419,593             410,305
                                                      Net Cost    $ 7,196,309      $    7,089,272      2%
                                                                        X                X
                                              Total Gross Cost    $ 7,623,809      $    7,506,819
                                   Less: Total Earned Revenue         419,593             410,305
                                  Total Net Cost of Operations    $ 7,204,216      $    7,096,514      2%




     U.S. Department of Justice



                                                   -7-
               Management’s Discussion & Analysis



2013 Financial Highlights

Strategic Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law, includes preventing, suppressing and intervening in crimes against children. The
Adam Walsh Child Protection and Safety Act (Walsh Act) includes a provision for the civil
commitment of sexually dangerous persons due for release from BOP custody. To initiate court
commitment proceedings, the BOP must certify the inmate as a “sexually dangerous person” as
specified in the statute. The BOP does not have an existing performance measure for its Walsh
Act efforts.

Strategic Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels,
includes maintaining secure, safe, and humane correctional institutions for sentenced offenders
placed in custody. The BOP develops and operates correctional programs that seek a balanced
application of the concepts of punishment and deterrence with opportunities to prepare the
offender for successful reintegration into society. Through the NIC, the BOP provides assistance
to international, Federal, state, and local correctional agencies. The BOP conducts its
incarceration function using a range of the BOP operated institutions of varying security levels,
as well as the use of privately operated facilities, which includes half-way houses. In addition,
the BOP houses all Washington, D.C. adult felons sentenced to a term of confinement. In FY
2013, Goal 3 net costs increased by 2 percent. This is primarily due to the increase of 611
inmates in the BOP’s custody.




     U.S. Department of Justice



                                              -8-
              Management’s Discussion & Analysis



FY 2013 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and
Enforce Federal Law. .1 percent of the BOP’s Net Costs support this Goal.

STRATEGIC GOAL 3: Ensure and Support the Fair, Impartial, Efficient, and
Transparent Administration of Justice at the Federal, State, Local, Tribal, and
International Levels. 99.9 percent of the BOP’s Net Costs support this Goal.

Performance Measure: Percent of System-wide Crowding in Federal Prisons (% over rated
capacity)
       FY 2013 Target: 38% 

       FY 2013 Actual: 36% 

       FY 2012 Actual: 38% 

       FY 2011 Actual: 39% 

       FY 2010 Actual: 37% 

       FY 2009 Actual: 37% 


Performance Measure: Number of inmate participants in the Residential Drug Abuse Program
      FY 2013 Target: 16,044 

      FY 2013 Actual: 15,723 

      FY 2012 Actual: 14,482 





    U.S. Department of Justice



                                          -9-
               Management’s Discussion & Analysis



ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The Integrity Act requires Federal agencies to
establish controls that reasonably ensure obligations and costs are in compliance with applicable
law; funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures are properly recorded and accounted for to
maintain accountability over the assets. The Integrity Act also requires agencies to annually
assess and report on the internal controls that protect the integrity of Federal programs (FMFIA
Section 2) and whether financial management systems conform to related requirements (FMFIA
Section 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In
addition to requiring agencies to provide an assurance statement on the effectiveness of
programmatic internal controls and conformance with financial systems requirements, the
Circular requires agencies to provide an assurance statement on the effectiveness of internal
control over financial reporting. The Department requires components to provide both of the
assurance statements in order to have the information necessary to prepare the agency assurance
statements.

FMFIA Assurance Statement

The Director of the BOP provides Reasonable Assurance that management controls and financial
systems met the objectives of Sections 2 and 4 of the FMFIA, with the exception of the material
weakness summarized below, for which a Corrective Action Plan has been established. In
accordance with Appendix A of OMB Circular A-123, the BOP conducted its assessment of the
effectiveness of internal control over financial reporting, which includes the safeguarding of
assets and compliance with applicable laws and regulations. Based on the results of this
assessment, the BOP can provide reasonable assurance that its internal control over financial
reporting was operating effectively as of June 30, 2013, and the assessment identified no material
weaknesses in the design or operations of the controls.




     U.S. Department of Justice



                                             - 10 -
               Management’s Discussion & Analysis



Controls

The BOP has a management control and financial management systems review program as
required by the FMFIA. The PRD facilitates, monitors, and evaluates the BOP’s implementation
of the FMFIA by coordinating management assessments, thereby providing a quality assurance
mechanism for the program review process. The PRD conducts reviews that examine
compliance with laws, regulations, and policy for all BOP programs. In addition, reviews
examine the adequacy of controls, efficiency of operations, and effectiveness in achieving
program results. During fiscal years 2013 and 2012, 33 and 27 Financial Management Program
Reviews, respectively, were conducted at field sites and the Central Office. The reviews covered
the areas of Accounting, Budgeting, Laundry, Employee Organizations, Property Management,
Commissary, and Warehouse.

Systems

For fiscal year 2013, the BOP’s official reports were generated from the Financial Management
Information System (FMIS) General Ledger, Cost Reporting, and Expenditure and Allotment
reporting facilities. The FMIS General Ledger is supported by the following other systems:
SENTRY Property Management System; SENTRY Real Property Management System; Trust
Fund Accounting and Commissary System; and National Finance Center Payroll System.

Improper Payments

The Improper Payments Information Act (IPIA) requires a risk assessment in all programs to
identify those that are susceptible to significant erroneous payments. Significant erroneous
payments are defined by the OMB as annual erroneous payments in a program exceeding both
2.5 percent of program payments and $10 million. Based on risk assessment comprised of
Independent Audit Reports and Internal Control Reviews, in FY 2013, the BOP has determined
there were no significant risk programs in which improper payments exceed both 2.5 percent of
program payments and $10 million.




     U.S. Department of Justice



                                            - 11 -
               Management’s Discussion & Analysis



FMFIA Section 2 – Material Weaknesses

Management of the Bureau of Prisons is responsible for establishing and maintaining effective
internal control and financial management systems that meet the objectives of the FMFIA. The
BOP assessed its internal control over the effectiveness and efficiency of operations and
compliance with the applicable laws and regulations in accordance with OMB Circular A-123,
Management’s Responsibility for Internal Control, as required by Section 2 of the FMFIA.
Based on the results of this assessment, the BOP can provide reasonable assurance that its
internal control over the effectiveness and efficiency of operations and compliance with
applicable laws and regulations as of September 30, 2013, was operating effectively, except for
one material weakness of system-wide prison crowding.

The BOP manages the continually growing Federal inmate population by contracting with the
private sector and using state and local facilities for certain groups of low-security inmates,
expanding existing institutions, and building new facilities. The continued use of these
approaches is expected to allow the BOP to keep pace with the growing inmate population and
gradually reduce the crowding rate, thereby ensuring safe and secure operations in facilities
housing Federal inmates.

FMFIA Section 4 – Material Nonconformances

The BOP management is responsible for ensuring compliance with applicable laws and
regulations. To ensure compliance, reviews are performed as discussed above. Specifically, the
BOP performed a review of its financial management systems pursuant to Section 4 provisions
of the FMFIA. No significant financial management non-conformance was found in this review.


Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to
improve Federal financial and program managers’ accountability, provide better information for
decision-making, and improve the efficiency and effectiveness of Federal programs. FFMIA
requires agencies to have financial management systems that substantially comply with Federal
financial management systems requirements, applicable Federal accounting standards, and
application of the U.S. Standard General Ledger (USSGL) at the transaction level. Furthermore,
the Act requires independent auditors to report on agency compliance with the three
requirements in the financial statement audit report. The Federal Information Security
Management Act (FISMA) states that to be substantially compliant with FFMIA, there are to be
no significant deficiencies in information security policies, procedures, or practices.




     U.S. Department of Justice



                                            - 12 -
               Management’s Discussion & Analysis



FFMIA Compliance Determination

During FY 2013, the BOP assessed its financial management systems for compliance with
FFMIA and determined that they substantially comply with FFMIA. This determination is based
on the results of testing performed for OMB Circular A-123, Appendix A. Consideration was
also given to any issues identified during the BOP’s financial statement audit.


IMPROPER PAYMENTS INFORMTION ACT OF 2002, as amended by the
IMPROPER PAYMENTS ELIMINATION ACT OF 2010.

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, and the Departmental guidance for implementing the
Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a top-
down approach to assess the risk of significant improper payments across all five of the
Department’s mission-aligned programs, and to identify and recapture improper payments
through a payment recapture audit program. The approach promotes consistency across the
Department and enhances internal control related to preventing, detecting, and recovering
improper payments. Because of the OMB requirement to assess risk and report payment
recapture audit activities by agency programs, the results of the Department’s risk assessment
and recapture activities are reported at the Department-level only.

In accordance with the Departmental approach for implementing IPERA, the BOP assessed its
activities for susceptibility to significant improper payments. The BOP also conducted its
payment recapture audit program in accordance with the Departmental approach. The BOP
provided the results of both the risk assessment and payment recapture audit activities to the
Department for the Department-level reporting in the FY 2013 Agency Financial Report.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Crowding in Federal Prisons

Most of the challenges affecting the BOP today relate to growth of the Federal inmate
population. The BOP continues to rely on funding to build and acquire additional facilities to
help manage its growing inmate population and reduce the crowding rate. With increasing
Federal law enforcement efforts, the BOP is projecting population increases for the next several
years.




     U.S. Department of Justice



                                            - 13 -
               Management’s Discussion & Analysis



LIMITATIONS OF THE FINANCIAL STATEMENTS

	 The principal financial statements have been prepared to report the financial position and
   results of operations of the BOP, pursuant to the requirements of 31 U.S.C. 3515(b).

	 While the statements have been prepared from the books and records of the BOP in
   accordance with U.S. generally accepted accounting principles for Federal entities and the
   formats prescribed by OMB, the statements are in addition to the financial reports used to
   monitor and control budgetary resources which are prepared from the same books and
   records.

	 The statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity.




     U.S. Department of Justice



                                            - 14 -
  ATTACHMENT A 


                                                                                     FEDERAL PRISON SYSTEM
                                                                                                   Current Locations




                                                                                                                                                 OXFOIID
                                                                                                                                                      •




                  ~ IlQNOWLU


               -. .._GO....
               "$­_ ­
                            -"C




                  . 0 ... _"""""
                   .........o.,....
                  ... ,-~-­
                   1\
                                    I'UIT..........


                      ........... _u.../I'''''''..._ 

                                       .,...,.,.aH'f
                        M . .WJI'LDW . .
                  o6 ",,_,.<am<.
                       .._ _ «W7f_          ~7Q                                                                                                    c::::::I ......_ - ­
                                                                                                                                                   c:::J -... uomw. ...""'"
                   ~    .......... -~                   
                                                                                          c:::::J "",..."" ,_ ...­
       ~          ... . _
                       ~
                                           -
                                           =.               =-
                              "",_"" . .,_ _ _. rr. _ _ «><nW<" ._



                                                                              -
                                                                              =...
                                                                                    "'_""' ___ '-".00. _ _ ......... c.o ._

PfllSOH WORK CAWl'S LOCAl'BI WIn! hWiHER SECUlllrt HlCUllE'S AND ctWPlDE S (SATHUll' CAMPS,:
                                                                                                 .:::..                <.OW                ==      c::::J -.-,.....""_
                                                                                                                                                           - - . . . 0 , ...­

                                                                                                                                                   c::J _ ......., .. _
                                                                                                                                                                              



AUCEWJ..E. AL;ASHLAHD. IO': AIlANTA. GA:AIWAIER. CA: 1lAS11'IOP. IX; BlAUII£Wl': lX: IlECKlEO'. \OW: BEHHETSItUE. sc: B~ lIH,fIIG Sf'fIING. IX: BIG SANDY. 10': 111I11IEJI. NC. CA"'-'IH. FA, CAR~ IX: COUMAH. R: CUWIIV!I.AHD. IID: DAMltlRy,
eT: 1IflEIIS. II": 0l.eUN. CA.- EDGEflEI.D. so::
                                              R ffeIO. OK: EHOlElt'OOD, CO: ESraJ... sc, FARTOH. HJ: FLOfIEHCE. COo_ S f CITY, "If: ""'TOOf, HJ: GUIER. WII: GflEElMlJ.E..1L: HAZEl.TOH, WI': HERl.OHi1. CA:JESUP. CiA: UllIIHA. IX; lEAl'EHWOlmI.




                                                                                                                                                                                                 - -......_­
KS: LEE; VA, LFMSBWIV. PA: LEXlNGTOH, KY, LOMPOC. CA: lORflTO. FA: IIIANaIflIHf. IO': MARlAI.tM, R:.tIA/IIOH. '"' IICC _ V. KY: MCX£AH. P" : M8IPHIS, rN....ENOOTA, CA: IllAIIt R: QIIKD,UE.I.A: OIlSI'1I.l.E, lf': Oll'FOllD. It'!: PEKIN. IL: I'flBISBt.ftO.
VA;_a:         AZ;POUOCI(. I.A: SCIffiIUCIU.. FA; ~oomu. IX: SHEf!I[I.IIH. 011: rA~GA, AL: TH!RE ""Un-III; raARKAHA, IX; fHREIi RIVERS, IX; ~ SOH•• .; \'IeWI!VI.I.E. Co\; I+ILUoUISBtMG. sc: YAZ OO CITl'....s.

                                                                                                                                                                                       - "" "-"'_
                                                                                                                                                                                                          ... ,."

                                                                                                                     - 15 ­
This page intentionally left blank. 





               - 16 -
u.s. DEPARTMENT OF JUSTICE 

      BUREAU OF PRISONS 



    INDEPENDENT AUDITORS' REpORTS




                 - 17 ­
This page intentionally left blank. 





               - 18 -
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                      Independent Auditors’ Report on the Financial Statements


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Prisons
U.S. Department of Justice


We have audited the accompanying consolidated financial statements of the U.S. Department of Justice
Federal Bureau of Prisons (BOP) which comprise the consolidated balance sheets as of September 30,
2013 and 2012, and the related consolidated statements of net cost, and changes in net position, and the
combined statements of budgetary resources (hereinafter referred to as “consolidated financial statements”)
for the years then ended, and the related notes to the consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of the
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including
the assessment of the risks of material misstatement of the consolidated financial statements, whether due
to fraud or error. In making those risk assessments, the auditors consider internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                       - 19 -
Independent Auditors’ Report on the Financial Statements
Page 2




We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Federal Bureau of Prisons as of
September 30, 2013 and 2012, and its net costs, changes in net position, and budgetary resources for the
years then ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matters

As discussed in Note 1.T to the consolidated financial statements, the BOP adopted Statement of Federal
Financial Accounting Standards No. 43, Funds from Dedicated Collections: Amending Statement of
Federal Financial Accounting Standards No. 27, Identifying and Reporting Earmarked Funds, effective
October 1, 2012. The fiscal year 2012 consolidated financial statements have been adjusted for the
retrospective application of the new accounting guidance. Our opinion is not modified with respect to this
matter.

As discussed in Note 22 to the consolidated financial statements, the BOP has elected to change its
capitalization threshold for internal use software effective October 1, 2012. Our opinion is not modified
with respect to this matter.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, and Required Supplementary Information sections be presented to supplement the
consolidated financial statements. Such information, although not a part of the consolidated financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to be an
essential part of financial reporting for placing the consolidated financial statements in an appropriate
operational, economic, or historical context. We have applied certain limited procedures to the required
supplementary information in accordance with auditing standards generally accepted in the United States
of America, which consisted of inquiries of management about the methods of preparing the information
and comparing the information for consistency with management’s responses to our inquiries, the
consolidated financial statements, and other knowledge we obtained during our audits of the consolidated
financial statements. We do not express an opinion or provide any assurance on the information because
the limited procedures do not provide us with sufficient evidence to express an opinion or provide any
assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
as a whole. The Combined Schedule of Spending, Treasury Symbol Matrix, Prisoner Capacity
Requirements and Operating Leases as of September 30, 2013 are presented for purposes of additional
analysis and are not a required part of the consolidated financial statements. Such information has not been




                                               - 20 -
Independent Auditors’ Report on the Financial Statements
Page 3




subjected to the auditing procedures applied in the audits of the consolidated financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our fiscal year 2013 report dated
December 3, 2013 on our consideration of the BOP’s internal control over financial reporting, and our
fiscal year 2013 report dated December 3, 2013 on our tests of its compliance with certain provisions of
laws, regulations, and contracts and other matters. The purpose of those reports is to describe the scope of
our testing of internal control over financial reporting and compliance and the results of that testing, and
not to provide an opinion on the internal control over financial reporting or on compliance. Those reports
are an integral part of an audit performed in accordance with Government Auditing Standards in
considering the BOP’s internal control over financial reporting and compliance.




December 3, 2013




                                               - 21 -
This page intentionally left blank. 





               - 22 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




 Independent Auditors’ Report on Internal Control over Financial Reporting Based on an Audit of
       Financial Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Prisons
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice Federal Bureau of Prisons (BOP), which comprise the consolidated balance
sheets as of September 30, 2013 and 2012, and the related consolidated statements of net cost, and changes
in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and the related notes to the consolidated
financial statements, and have issued our report thereon dated December 3, 2013. As discussed in Note 1.T
to the consolidated financial statements, the BOP adopted Statement of Federal Financial Accounting
Standards No. 43, Funds from Dedicated Collections: Amending Statement of Federal Financial
Accounting Standards No. 27, Identifying and Reporting Earmarked Funds, effective October 1, 2012. The
fiscal year 2012 consolidated financial statements have been adjusted for the retrospective application of
the new accounting guidance. Our opinion is not modified with respect to this matter. Also, as discussed in
Note 22 to the consolidated financial statements, the BOP has elected to change its capitalization threshold
for internal use software effective October 1, 2012. Our opinion is not modified with respect to this matter.

Internal Control over Financial Reporting

In planning and performing our audit of the consolidated financial statements as of and for the year ended
September 30, 2013, we considered the BOP’s internal control over financial reporting (internal control) to
determine the audit procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the BOP’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the BOP’s internal control. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A


                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.


                                                         - 23 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2


significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results of
that testing, and not to provide an opinion on the effectiveness of the BOP’s internal control. This report is
an integral part of an audit performed in accordance with Government Auditing Standards in considering
the BOP’s internal control. Accordingly, this communication is not suitable for any other purpose.




December 3, 2013




                                                 - 24 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




  Independent Auditors’ Report on Compliance and Other Matters Based on an Audit of Financial
            Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Prisons
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice Federal Bureau of Prisons (BOP), which comprise the consolidated balance
sheets as of September 30, 2013 and 2012, and the related consolidated statements of net cost, and changes
in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended and the related notes to the consolidated
financial statements, and have issued our report thereon dated December 3, 2013. As discussed in Note 1.T
to the consolidated financial statements, the BOP adopted Statement of Federal Financial Accounting
Standards No. 43, Funds from Dedicated Collections: Amending Statement of Federal Financial
Accounting Standards No. 27, Identifying and Reporting Earmarked Funds, effective October 1, 2012. The
fiscal year 2012 consolidated financial statements have been adjusted for the retrospective application of
the new accounting guidance. Our opinion is not modified with respect to this matter. Also, as discussed in
Note 22 to the consolidated financial statements, the BOP has elected to change its capitalization threshold
for internal use software, effective October 1, 2012. Our opinion is not modified with respect to this matter.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the BOP’s consolidated financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests of compliance disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed no instances in which the BOP’s financial management systems did
not substantially comply with the (1) federal financial management system requirements, (2) applicable

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.


                                                        - 25 -
Independent Auditors’ Report on Compliance and Other Matters
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2


federal accounting standards, and (3) application of the United States Government Standard General
Ledger at the transaction level.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that
testing, and not to provide an opinion on the BOP’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the BOP’s compliance.
Accordingly, this communication is not suitable for any other purpose.




December 3, 2013




                                                - 26 -
U.S. DEPARTMENT OF JUSTICE


      BUREAU OF PRISONS

    PRINCIPAL FINANCIAL STATEMENTS
	
          AND RELATED NOTES
	




                  - 27 -
                                                              U.S. Department of Justice 

                                                                  Bureau of Prisons

                                                             Consolidated Balance Sheets

                                                          As of September 30, 2013 and 2012





Dollars in Thousands                                                                                 2013                  2012

ASSETS (Note 2)
   Intragovernmental
       Fund Balance with U.S. Treasury (Note 3)                                           $   1,033,784           $   1,305,195
       Accounts Receivable, Net (Note 6)                                                          4,348                   3,653
       Other Assets (Note 9)                                                                          -                 165,000
   Total Intragovernmental                                                                    1,038,132               1,473,848

   Cash and Monetary Assets (Note 4)                                                                543                     802
   Accounts Receivable, Net (Note 6)                                                              5,053                   7,361
   Inventory and Related Property, Net (Note 7)                                                  18,775                  19,609
   General Property, Plant and Equipment, Net (Note 8)                                        6,239,845               6,286,908
   Advances and Prepayments                                                                       4,315                   4,622
   Other Assets (Note 9)                                                                          4,189                   4,701
Total Assets                                                                              $   7,310,852           $   7,797,851

LIABILITIES (Note 10)
   Intragovernmental
       Accounts Payable                                                                   $      36,356           $     47,558
       Accrued Federal Employees' Compensation Act Liabilities                                  158,816                152,884
       Other Liabilities (Note 13)                                                               31,241                 69,148
   Total Intragovernmental                                                                      226,413                269,590

   Accounts Payable                                                                             347,010                 291,709
   Actuarial Federal Employees' Compensation Act Liabilities                                    956,439                 853,362
   Accrued Payroll and Benefits                                                                  61,401                 155,218
   Accrued Annual and Compensatory Leave Liabilities                                            171,578                 171,739
   Environmental and Disposal Liabilities (Note 11)                                              66,225                  64,222
   Deferred Revenue                                                                               2,196                   1,957
   Contingent Liabilities (Note 14)                                                               4,685                   4,230
   Capital Lease Liabilities (Note 12)                                                            8,716                  16,627
   Other Liabilities (Note 13)                                                                  176,621                 159,380
Total Liabilities                                                                         $   2,021,284           $   1,988,034

NET POSITION
   Unexpended Appropriations - All Other Funds                                   $              437,193           $     649,416
   Cumulative Results of Operations - Funds from Dedicated Collections (Note 15)                 93,693                  86,212
   Cumulative Results of Operations - All Other Funds                                         4,758,682               5,074,189
Total Net Position                                                               $            5,289,568           $   5,809,817

Total Liabilities and Net Position                                                        $   7,310,852           $   7,797,851




  U.S. Department of Justice
                                     The accompanying notes are an integral part of these financial statements.


                                                           - 28 -
                                                                  U.S. Department of Justice 

                                                                      Bureau of Prisons

                                                             Consolidated Statements of Net Cost

                                                   For the Fiscal Years Ended September 30, 2013 and 2012 





Dollars in Thousands

                                       Gross Costs                                    Less: Earned Revenues                      Net Cost of
                    Intra-              With the                               Intra-        With the                            Operations
              FY governmental            Public               Total         governmental      Public                 Total        (Note 16)

Goal 2       2013      $           -   $      7,907      $      7,907       $            -     $           -     $           -   $      7,907
             2012      $           -   $      7,242      $      7,242       $            -     $           -     $           -   $      7,242

Goal 3       2013          1,671,102       5,944,800         7,615,902             20,950          398,643           419,593         7,196,309
             2012          1,664,927       5,834,650         7,499,577             20,904          389,401           410,305         7,089,272

Total        2013      $ 1,671,102     $ 5,952,707       $ 7,623,809        $      20,950      $   398,643       $   419,593     $ 7,204,216
             2012      $ 1,664,927     $ 5,841,892       $ 7,506,819        $      20,904      $   389,401       $   410,305     $ 7,096,514


Goal 2      Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3      Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
            State, Local, Tribal, and International Levels




  U.S. Department of Justice
                                           The accompanying notes are an integral part of these financial statements.



                                                                      - 29 -
                                                           U.S. Department of Justice

                                                                Bureau of Prisons

                                               Consolidated Statements of Changes in Net Position

                                                 For the Fiscal Year Ended September 30, 2013





Dollars in Thousands


                                                                                     2013
                                                           Funds from
                                                            Dedicated              All other
                                                           Collections              Funds                      Total
Unexpended Appropriations
  Beginning Balances                                  $                   -    $         649,416      $           649,416

   Budgetary Financing Sources
     Appropriations Received                                              -            6,920,217                 6,920,217
     Appropriations Transferred-In/Out                                    -               87,214                    87,214
     Other Adjustments                                                    -             (540,312)                 (540,312)
     Appropriations Used                                                  -           (6,679,342)               (6,679,342)
   Total Budgetary Financing Sources                                      -             (212,223)                (212,223)
   Unexpended Appropriations                          $                   -    $         437,193      $           437,193

Cumulative Results of Operations
  Beginning Balances                                  $            86,212      $       5,074,189      $         5,160,401
  Adjustments (Note 22)
     Changes in Accounting Principles                                   -                 (8,787)                  (8,787)
  Beginning Balances, As Adjusted                                  86,212              5,065,402                5,151,614

   Budgetary Financing Sources
     Appropriations Used                                                  -            6,679,342                6,679,342

   Other Financing Sources
      Donations and Forfeitures of Property                               -                      3                       3
      Transfers-In/Out Without Reimbursement                             (7)                   139                     132
      Imputed Financing From Costs Absorbed
        by Others (Note 17)                                         4,033                221,467                  225,500
   Total Financing Sources                                          4,026              6,900,951                6,904,977
   Net Cost of Operations                                           3,455             (7,207,671)               (7,204,216)
   Net Change                                                       7,481               (306,720)                (299,239)
   Cumulative Results of Operations                   $            93,693      $       4,758,682      $         4,852,375

Net Position                                          $            93,693      $       5,195,875      $         5,289,568




  U.S. Department of Justice
                                  The accompanying notes are an integral part of these financial statements.



                                                          - 30 -
                                                         U.S. Department of Justice

                                                              Bureau of Prisons

                                       Consolidated Statements of Changes in Net Position (continued)

                                               For the Fiscal Year Ended September 30, 2012 





Dollars in Thousands


                                                                                      2012
                                                            Funds from
                                                             Dedicated              All other
                                                            Collections              Funds                      Total
Unexpended Appropriations
  Beginning Balances                                   $                  -    $          744,671      $           744,671

   Budgetary Financing Sources
     Appropriations Received                                              -             6,641,281                 6,641,281
     Appropriations Transferred-In/Out                                    -                  (562)                     (562)
     Other Adjustments                                                    -               (45,000)                  (45,000)
     Appropriations Used                                                  -            (6,690,974)               (6,690,974)
   Total Budgetary Financing Sources                                      -               (95,255)                 (95,255)
   Unexpended Appropriations                           $                  -    $          649,416      $           649,416

Cumulative Results of Operations
  Beginning Balances                                   $            83,557     $        5,092,691      $         5,176,248

   Budgetary Financing Sources
     Appropriations Used                                                  -             6,690,974                6,690,974

   Other Financing Sources
      Donations and Forfeitures of Property                               -                    30                       30
      Transfers-In/Out Without Reimbursement                              -               151,645                  151,645
      Imputed Financing From Costs Absorbed
        by Others (Note 17)                                          4,346                233,672                  238,018
   Total Financing Sources                                           4,346              7,076,321                7,080,667
   Net Cost of Operations                                           (1,691)            (7,094,823)               (7,096,514)
   Net Change                                                        2,655                (18,502)                 (15,847)
   Cumulative Results of Operations                    $            86,212     $        5,074,189      $         5,160,401

Net Position                                           $            86,212     $        5,723,605      $         5,809,817




  U.S. Department of Justice
                                   The accompanying notes are an integral part of these financial statements.



                                                           - 31 -
                                                             U.S. Department of Justice

                                                                 Bureau of Prisons

                                                   Combined Statements of Budgetary Resources

                                              For the Fiscal Years Ended September 30, 2013 and 2012





 Dollars in Thousands                                                                           2013                     2012

 Budgetary Resources:
    Unobligated Balance, Brought Forward, October 1                                $        395,915       $          379,813

    Recoveries of Prior Year Unpaid Obligations                                              14,780                   23,388
    Other Changes in Unobligated Balance                                                    (60,086)                  (1,862)
    Unobligated Balance from Prior Year Budget Authority, Net                               350,609                  401,339
    Appropriations (discretionary and mandatory)                                          6,527,205                6,597,581
    Spending Authority from Offsetting Collections (discretionary and mandatory)            415,990                  561,856
 Total Budgetary Resources                                                         $      7,293,804       $        7,560,776


 Status of Budgetary Resources:
     Obligations Incurred (Note 18)                                                $      7,020,130       $        7,164,861
     Unobligated Balance, End of Period:
          Apportioned                                                                        99,040                  232,512
          Exempt from Apportionment                                                          67,666                   59,772
          Unapportioned                                                                     106,968                  103,631
     Total Unobligated Balance - End of Period                                              273,674                  395,915
  Total Status of Budgetary Resources:                                             $      7,293,804       $        7,560,776


 Change in Obligated Balance:
    Unpaid Obligations:
         Unpaid obligations, Brought Forward, October 1                            $         868,945      $         1,051,944
         Obligations Incurred                                                              7,020,130                7,164,861
         Outlays, Gross                                                                   (7,162,998)              (7,324,472)
         Recoveries of Prior Year Unpaid Obligations                                         (14,780)                 (23,388)
         Unpaid Obligations, End of Period                                                   711,297                  868,945
    Uncollected Payments:
         Uncollected Payments from Federal Sources, Brought Forward, October 1              (10,038)                 (10,882)
         Change in Uncollected Customer Payments from Federal Sources                         4,530                      844
         Uncollected Customer Payments from Federal Sources                                  (5,508)                 (10,038)
    Memorandum (non-add) Entries:
         Obligated balance, Start of Period                                        $        858,907       $        1,041,062
          Obligated balance, End of Period                                         $        705,789       $          858,907


 Budgetary Authority and Outlays, Net:
    Budgetary Authority, Gross (discretionary and mandatory)                              6,943,195                7,159,437
    Less: Actual Offsetting Collections (discretionary and mandatory)                       420,520                  562,700
    Change in Uncollected Customer Payments from Federal Sources                              4,530                      844
        (discretionary and mandatory)
    Budget Authority, Net (discretionary and mandatory)                            $      6,527,205       $        6,597,581


     Outlays, Gross (discretionary and mandatory)                                  $      7,162,998       $        7,324,472
     Less: Actual Offsetting Collections (discretionary and mandatory)                      420,520                  562,700
     Outlays, Net (discretionary and mandatory)                                           6,742,478                6,761,772
     Less: Distributed Offsetting Receipts                                                    4,994                    5,452
     Agency Outlays, Net (discretionary and mandatory)                             $      6,737,484       $        6,756,320


U.S. Department of Justice
                                      The accompanying notes are an integral part of these financial statements.



                                                              - 32 -
                 Notes to the Principal Financial Statements



                                    Bureau of Prisons 

                       Notes to the Principal Financial Statements 

                            (Dollars in Thousands, Except as Noted) 


1.      Summary of Significant Accounting Policies

A.      Reporting Entity

The U.S. Federal Bureau of Prisons (BOP) is a reporting entity under the Department of Justice
(DOJ) and encompasses the appropriated activities of the BOP, as well as the activities of the
Trust Fund. It does not include the Federal Prison Industries, Inc. (FPI) (also called UNICOR),
which is a separate reporting component under the DOJ.

The BOP protects society by confining offenders in the controlled environments of prisons and
community-based facilities that are safe, humane, cost-efficient, and appropriately secure, and
that provide work and other self-improvement opportunities to assist offenders in becoming
law-abiding citizens.

The Trust Fund was created by two DOJ Orders, No. 2126 on April 1, 1930, and No. 2244 on
January 1, 1932. The Trust Fund operates the Commissary to provide inmates with the
opportunity to procure merchandise and services not ordinarily provided by the BOP. The Trust
Fund is a self-sustaining trust revolving fund account that is funded through the sale of goods
and services to inmates.

B.      Basis of Presentation

These financial statements have been prepared to report the financial position and results of
operations of the BOP as required by the Government Management Reform Act of 1994, Public
Law 103-356, 108, Stat. 3515. These financial statements have been prepared from the books
and records of the BOP in accordance with United States generally accepted accounting
principles (GAAP) issued by the Federal Accounting Standards Advisory Board (FASAB) and
presentation guidelines in the Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements. These financial statements are different from the financial
reports prepared pursuant to OMB directives which are used to monitor and control the use of the
BOP budgetary resources. To ensure that the BOP financial statements are meaningful at the
entity level and to enhance reporting consistency within the Department, Other Assets and Other
Liabilities as defined by OMB Circular A-136 have been disaggregated on the balance sheet.
These include Advances and Prepayments, Accrued Federal Employees’ Compensation Act
(FECA) Liabilities, Accrued Payroll and Benefits, Accrued Annual and Compensatory Leave
Liabilities, Deferred Revenue, Contingent Liabilities and Capital Lease Liabilities.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 33 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

C.      Basis of Consolidation

The consolidated/combined financial statements include the accounts of the BOP. All significant
proprietary intra-entity transactions and balances have been eliminated in consolidation. The
Statements of Budgetary Resources are combined statements for the fiscal years ended
September 30, 2013, and 2012 and as such, intra-entity transactions have not been eliminated.

D.      Basis of Accounting

The financial statements have been prepared and transactions have been recorded on an accrual
and budgetary bases of accounting. Under the accrual basis, revenues are recorded when earned
and expenses are recorded when incurred, regardless of when cash is exchanged. Under the
budgetary basis, however, funds availability is recorded based upon legal considerations and
constraints. As a result, certain line items on the proprietary financial statements may not equal
similar line items on the budgetary financial statements.

These statements were prepared in accordance with GAAP. GAAP for Federal entities are the
standards prescribed by the FASAB, which is designated as the official accounting standards-
setting body for the Federal Government (Government) by the American Institute of Certified
Public Accountants. The Statements of Federal Financial Accounting Standards (SFFAS) that
were in effect as of September 30, 2013, were followed in the preparation of these financial
statements.

E.      Non-Entity Assets

A portion of the BOP’s Fund Balance with the U.S. Treasury (Treasury) and Accounts
Receivable is accounted for as a Non-Entity Asset and disclosed in Note 2. Non-Entity assets
are assets held by the BOP but are not available for use by the BOP. The majority of non-entity
assets are comprised of prisoner monies held in trust by the Treasury. This amount also includes
certain receivables and receipts of cash that are in suspense, clearing, deposit, or general fund
accounts. These transactions were processed by commercial banks for deposit to fund accounts
maintained at the Treasury.

F.      Fund Balance with U.S. Treasury and Cash

Funds with the Treasury represent appropriated and trust funds available to pay current liabilities
and finance future authorized purchases. Certain receipts are processed by commercial banks for
deposit to the BOP appropriation or fund accounts. In addition, the BOP has been granted and
maintains imprest funds at many locations that are also included in the BOP’s cash balance.



     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 34 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

G.      Investments

The Government does not set aside assets to pay future benefits or other expenditures associated
with the Trust Fund. The cash receipts collected from the public for funds from dedicated
collections are deposited in the Treasury, which uses the cash for general Government purposes.
Treasury securities are an asset to the BOP and a liability to the Treasury. Because the BOP and
the Treasury are both parts of the Government, these assets and liabilities offset each other from
the standpoint of the Government as a whole. For this reason, they do not represent an asset or a
liability in the U.S. Government-wide financial statements.

Treasury securities provide the BOP with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the BOP requires redemption of these securities
to make expenditures, the Government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Government finances all other
expenditures.

Beginning in fiscal year 1995, the Trust Fund was granted authority (Public Law 103-317,
Section 107) to invest funds in excess of operating needs in securities guaranteed by the
Treasury. In November 1994, the Trust Fund began participating in the Federal Investment
Counseling Program through the Treasury. The Treasury charges no commissions or transaction
fees for participating in the program. Investments are made in any U.S. Government securities
available to the public. The amount and length of investments are determined after careful
review of cash balances available to defray outstanding payables and other liabilities.

Investments in U.S. Government securities are reported at cost, net of amortized discounts.
Discounts are amortized into interest income over the term of the investment. The Trust Fund’s
intent is to hold investments to maturity, unless they are needed to sustain the operations of the
Trust Fund. No provision is made for unrealized gains or losses on these securities because, in
the majority of cases, they are held to maturity. The interest received on these securities is
captured in the Trust Fund and is used to defray its general operating expenses.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 35 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

H.      Accounts Receivable

Accounts receivable are largely comprised of receivables with the public. Net accounts
receivable includes reimbursement and refund receivables due from Federal agencies and others,
less the allowance for uncollectible accounts. The BOP establishes an allowance for
uncollectible accounts when it is more likely than not that the accounts receivable will not be
collected.

I.      Inventory and Related Property

The Trust Fund Commissary inventories are comprised of merchandise on hand at 97 reporting
sites located in the United States and Puerto Rico. Inventories consist of merchandise that is
either not normally provided by the BOP or are of a different quality than is regularly issued.
Inventory sales are restricted to inmates and consist primarily of foods and beverages, hobby
craft items, stamps, clothing, health and hygiene commodities, and other sundry items.

The Trust Fund Commissary inventories are stated at latest acquisition cost, which is adjusted
using the Consumer Price Index (CPI) for the year to approximate the value of the inventory
under the First-In-First-Out (FIFO) accounting methodology.

J.      General Property, Plant and Equipment

The BOP owns the majority of land and buildings in which it operates and capitalizes them on its
records. Real property is capitalized based upon the total acquisition cost. Depreciation is
applied to program areas based upon the percentage of space occupied. Real property
acquisitions equal to or greater than $100 thousand are capitalized. Real property acquisitions
are capitalized and depreciated by the automated SENTRY Real Property Management System
(SRPMS).

Personal property acquisitions are capitalized and depreciated by the automated SENTRY
Property Management System (SPMS). Physical inventories are conducted annually and
adjustments are made as necessary. Any equipment with an acquisition cost of less than $5
thousand is expensed when purchased. Assets are depreciated using the straight-line method
over the estimated useful lives of the assets.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 36 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued) 


J.      General Property, Plant and Equipment (continued) 


The following chart represents the maximum depreciation years for BOP’s property: 


BOP Depreciation Schedule
Buildings                                              30
Equipment                                              10
Leasehold Improvements                                  *
Other Structures & Facilities                          20
Internal Use Software                                   7
Vehicles                                               10
Assets Under Capital Lease                              *
* Depreciation based on the lesser of the lease term or useful life of the asset.

DOJ Financial Management Policy Memorandum (FMPM) 13-12, Capitalization of General
Property, Plant, and Equipment and Internal Use Software, was issued in FY 2013 with an
effective date for reporting periods ending after September 30, 2014. Early implementation of
the policy’s increased capitalization thresholds was encouraged beginning October 1, 2012. The
BOP implemented the increased internal use software (IUS) capitalization threshold in FY 2013.
The BOP plans to implement the increased real and personal property capitalization thresholds in
FY 2015. For financial statement purposes, the primary changes relate to the capitalization
thresholds for IUS which results in a decrease to the overall Property, Plant and Equipment
(PP&E) balance.

Below are the capitalization thresholds:

                 Type of Property            FY 2013 Thresholds                   FY2012 Thresholds
           Real Property                                     $100                                 $100
           Personal Property                                    $5                                  $5
              Aircraft                                        N/A                                  N/A
           Internal Use Software                           $5,000                                 $500

Except for land, all general PP&E will be capitalized when the cost of acquiring or improving
the property meets the threshold noted in the table above and has a useful life of two or more
years. Land is capitalized regardless of the acquisition cost. Except for land, all general PP&E
is depreciated or amortized, based on historical cost, using the straight-line method over the
estimated useful life of the asset. Land is never depreciated.




     U.S. Department of Justice
                                    These notes are an integral part of these financial statements.


                                                      - 37 -
                  Notes to the Principal Financial Statements



1.     Summary of Significant Accounting Policies (continued)

K.      Advances and Prepayments

Advances and prepayments classified as assets of the BOP on the Balance Sheet represent funds
disbursed to individuals and other organizations for which goods or services have not yet been
provided.

This amount also includes the current balance of travel advances, issued to Federal employees in
advance of official travel. Amounts issued are limited to per diem expenses expected to be
incurred by the employees during official travel. For Federal employees who anticipate and plan
for travel, advances are permitted up to 80 percent of per diem. Actual reimbursements are made
at 100 percent of per diem.

The BOP’s amount also includes advances that arise whenever the BOP provides money to state
and local governmental agencies to fund correctional study programs. Advances and
prepayments involving other Federal agencies are classified as other assets on the balance sheet.

L.      Liabilities

Liabilities represent the monies or other resources that are likely to be paid by the BOP as the
result of a transaction or event that has already occurred. However, no liability can be paid by
the BOP absent proper budget authority. Liabilities that are not funded by the current year
appropriation are classified as liabilities not covered by budgetary resources in Note 10.

M.      Contingencies and Commitments

Contingencies
The BOP is party to various administrative proceedings, legal actions, and claims related to
contract disputes, employee claims under the Fair Labor Standards Act, and inmate claims under
the Federal Tort Claim Act and other legal matters. These claims are of a nature considered
normal for a government law enforcement agency. In accordance with SFFAS No. 5,
Accounting for Liabilities of the Federal Government and SFFAS No. 12, Recognition of
Contingent liabilities from Litigation, the BOP has probable and reasonably possible losses
arising from litigation. The balance sheet includes an estimated liability for those legal actions
where management and the Chief Counsel consider adverse decisions “probable” and amounts
are reasonably estimable. Legal actions where management and the Chief Counsel consider
adverse decisions “probable” or “reasonably possible” and the amounts are reasonably estimable
are disclosed in Note 14, Contingencies and Commitments. However, there are cases where
amounts have not been accrued or disclosed because the amounts of the potential loss cannot be
estimated or the likelihood of an unfavorable outcome is “remote.”



     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 38 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

N.      Annual, Sick, and Other Leave

Annual and compensatory leave is expensed with an offsetting liability as it is earned and the
corresponding liability is reduced as leave is taken. Each year, the balance in the accrued annual
leave liability account is adjusted to reflect current pay rates. To the extent current or prior year
appropriations are not available to fund annual and compensatory leave earned but not taken,
funding will be obtained from future financing sources.

Sick leave and other types of non-vested leave are expensed as taken.

O.      Interest on Late Payments

Pursuant to the Prompt Payment Act, 31 U.S.C. 3901-3907, Federal agencies must pay interest
on payments for goods or services made to business concerns after the due date. The due date is
generally 30 days after receipt of a proper invoice or acceptance of the goods or services.

P.      Retirement Plans

With few exceptions, employees of the Department are covered by one of the following
retirement programs:
      1.	 Employees hired before January 1, 1984, are covered by the Civil Service Retirement
          System (CSRS). For employees covered by the CSRS, the BOP contributes 7 percent of
          the employees’ gross pay for regular and 7.5 percent for law enforcement officers’
          retirement.
      2.	 Employees hired between January 1, 1984 and December 31, 2012, are covered by the
          Federal Employees Retirement System (FERS). For employees covered by the FERS, the
          BOP contributes 11.9 percent of the employee’s gross pay for regular and 26.3 percent
          for law enforcement officers’ retirement.
      3.	 Employees hired after January 1, 2013 are covered by the Federal Employees Retirement
          System-Revised Annuity Employees (FERS-RAE) System. For employees covered by
          FERS-RAE, the BOP contributes 9.6 percent of the employees’ gross pay for regular and
          24 percent for law enforcement officers’ retirement.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 39 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

P.      Retirement Plans (continued)

All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP). For those
employees covered by the FERS and FERS-RAE, a TSP account is automatically established to
which the BOP is required to contribute an additional 1 percent of gross pay and match employee
contributions up to 4 percent. No contributions are made to the TSP accounts established by the
CSRS employees. The BOP does not report CSRS or FERS assets, accumulated plan benefits, or
unfunded liabilities, if any, which may be applicable to its employees. Such reporting is the
responsibility of the Office of Personnel Management (OPM). SFFAS No. 5 requires employing
agencies to recognize the cost of pensions and other retirement benefits during their employees’
active years of service. Refer to Note 17, “Imputed Financing from Costs Absorbed by Others,”
for additional details.

Q.      Federal Employee Compensation Benefits

The FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have contracted a work-related occupational disease, and
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits for BOP employees under FECA are administered by the
Department of Labor (DOL) and are ultimately paid by the BOP. The total FECA liability
consists of an actuarial and an accrued portion as discussed below.

Actuarial Liability: The DOL calculates the liability of the Government for future compensation
benefits, which includes the expected liability for death, disability, medical, and other approved
costs. This method utilizes historical benefit payment patterns related to a specified incurred
period to predict the ultimate payments related to that period. The projected annual benefit
payments were discounted to present value. The resulting Government liability was then
distributed by the agency. The DOJ portion of this liability includes the estimated future cost of
death benefits, workers’ compensation, medical, and miscellaneous cost for approved
compensation cases for the DOJ employees. The DOJ allocates the liability to the BOP on the
basis of actual payments made to the FECA Special Benefits Fund (SBF) for the three prior years
as compared to the total DOJ payments made over the same period.

The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an
extended future estimate of cost, which will not be obligated against budgetary resources until
the fiscal year in which the cost is actually billed to the DOJ.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 40 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

Q. Federal Employee Compensation Benefits (continued)

Accrued Liability: The accrued FECA liability is the difference between the FECA benefits paid
by the FECA SBF and the agency’s actual cash payments to the FECA SBF. For example, the
FECA SBF will pay benefits on behalf of an agency through the current year. However, most
agencies’ actual cash payments during the current year to the FECA SBF will reimburse the
FECA SBF for benefits paid through a prior fiscal year. The difference between these two
amounts is the accrued FECA liability.

R.      Intragovernmental Activity

Intragovernmental costs and exchange revenue represent transactions made between two
reporting entities within the Government. Costs and earned revenues with the public represent
exchange transactions made between the reporting entity and a non-federal entity. The
classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Government
to prepare consolidated financial statements, not to match public and intragovernmental revenue
with the costs incurred to produce public and intragovernmental revenue.

S.      Revenues and Other Financing Sources

The BOP receives annual, multi-year, and no-year appropriations that may be used, within
statutory limits, for operating and capital expenditures to support its programs. Appropriations
are recognized as budgetary financing sources at the time the related program or administrative
expenses are accrued. Additional amounts are obtained through reimbursements for services and
donated property.

The BOP receives the majority of its exchange revenues for daily care, maintenance, and housing
of state and local offenders; medical services outside of the BOP provided to the United States
Marshals Service’s prisoners; meals provided to the BOP staff; rental of staff housing on
institution premises; utilities used by the FPI; purchase card rebates; and recycling income.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 41 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

S.      Revenues and Other Financing Sources (continued)

The amount billed to house state prisoners is based on the average inmate per capita rate for the
security level of the institution where the prisoner is housed. The price of meal tickets for
institution employees is calculated using the annual per capita cost for providing meals to
inmates. Rental rates for employee housing on institution premises are calculated using the
Regional Survey Method: base rental rates are established by means of a series of economic
models that utilize typical rates for comparable private rental housing in the established
communities nearest to the sites in which the quarters are located. The amount charged for
steam purchased by the FPI is the actual cost incurred by the BOP during the production of the
utility provided. Purchase card rebates are calculated based on productivity and sales. Recycling
income is based on the weight and/or volume of material being recycled.

Trust Fund profits are utilized for continued operations and programs that benefit the inmate
population. The Trust Fund receives no appropriated funds. The Trust Fund receives the
majority of its funding through revenues generated by the sale of merchandise, telephone
services, and electronic messaging through the Trust Fund Limited Inmate Computer System
(TRULINCS). TRULINCS was fully implemented as of February 2011, and provides inmates
with some limited computer access. TRULINCS is funded completely by the Trust Fund
Appropriation. Regular items sold through the institution commissaries are marked-up 30
percent from their per unit cost. They are then rounded to the nearest nickel to determine selling
price. In rare instances when taxes (whether state, local, or Federal) are included, the per unit tax
amount is added to the marked-up price before rounding. Should the selling price ever exceed
the manufacturer’s printed price, the printed price shall be set even if it is on odd cents.

The Trust Fund also earned other revenue from medical co-payments, vendor commissions, and
recycling income. As of March 2004, friends and family members are able to send money to
inmates electronically. Funds are deposited directly to an inmate’s account within a few hours.
A commission based on transaction volume is received from the vendor. As of October 2005,
inmates pay a $2 per visit co-pay for in-house medical appointments. Twenty-five percent of the
co-pay is retained by the Trust Fund and the other percent is paid to the Office of Justice
Programs Crime Victims Fund. Trust Fund Debit Card Vending has been limited to the sale of
credits through the commissary for services such as copies and the use of washer and dryers.
Trust Fund revenue also includes investment income.   

The Trust Fund has deferred revenue for the inmate Telephone System and the TRULINCS,
which include the amount of phone credits and TRU-units purchased by inmates that have not
been used as of September 30, 2013.    




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 42 -
                  Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

T.      Funds from Dedicated Collections

SFFAS No. 27, Identifying and Reporting Funds from Dedicated Collections, as amended by
SFFAS No. 43, Funds from Dedicated Collections: Amending Statement of Federal Financial
Accounting Standards 27, Identifying and Reporting Earmarked Funds, defines ‘funds from
dedicated collections’ as being financed by specifically identified revenues, provided to the
Government by non-federal sources, often supplemented by other financing sources, which
remain available over time. These specifically identified revenues and other financing sources
are required by statute to be used for designated activities, benefits, or purposes, and must be
accounted for separately from the Government’s general revenues. The three required criteria
for a fund from dedicated collections are:
      1.	 A statute committing the Government to use specifically identified revenues and/or other
          financing sources that are originally provided to the Government by a non-federal source
          only for designated activities, benefits, or purposes;
      2.	 Explicit authority for the fund to retain revenues and/or other financing sources not used
          in the current period for future use to finance the designated activities, benefits, or
          purposes; and
      3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
          and/or other financing sources that distinguishes the fund from the Government’s general
          revenues.
The following fund meets the definition of funds from dedicated collections: Trust Fund –
15X8408.

U.      Allocation Transfer of Appropriations

The BOP is a party to allocation transfers with another Federal agency as a transferring (parent)
entity. Allocation transfers are legal delegations by one department of its authority to obligate
budget authority and outlay funds to another department.

Generally, all financial activity related to these allocation transfers (e.g., budget authority,
obligations, outlays) is reported in the financial statements of the parent entity, from which the
underlying legislative authority, appropriations, and budget apportionments are derived.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 43 -
                 Notes to the Principal Financial Statements



1.      Summary of Significant Accounting Policies (continued)

U.      Allocation Transfer of Appropriations (continued)

The BOP allocates funds to the Public Health Service (PHS). The PHS provides a portion of the
medical treatment for Federal inmates. Money is transferred from the BOP to PHS, and is
designated and expended for current year obligations of PHS staff salaries, benefits, and
applicable relocation expenses. The amounts transferred to PHS from the BOP totaled $106
million and $97 million for the fiscal years ended September 30, 2013 and 2012, respectively,
and are not material to PHS, therefore they are included as part of these financial statements.

V.      Tax Exempt Status

As an agency of the Government, the BOP is exempt from all income taxes imposed by any
governing body whether it is a Federal, state, commonwealth, local, or foreign government.

W.      Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenue and expenses during the reporting period. Actual results could differ from those
estimates.

X.      Reclassifications

The FY 2012 financial statements were reclassified to conform to the FY 2013 Departmental and
OMB financial statement presentation requirements. The reclassification had no material effect
on total assets, liabilities, net position, changes in net position or budgetary resources as
previously reported.

Y.      Subsequent Events

Subsequent events and transactions occurring after September 30, 2013 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial statements
were available to be issued.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 44 -
                   Notes to the Principal Financial Statements



2.      Non-Entity Assets

Non-entity assets are assets that are held by an entity but are not available for use by the entity.
Non-entity assets as of September 30, 2013 and 2012 are presented in the following table.


              As of September 30, 2013 and 2012
                                                                            2013                 2012
              Intragovernmental
                 Fund Balance With U.S. Treasury                       $         54,864     $          51,175

              With the Public
                Accounts Receivable, Net                                       422                  295
                   Total With the Public                                       422                  295
                   Total Non-Entity Assets                                  55,286               51,470
                   Total Entity Assets                                   7,255,566            7,746,381
                   Total Assets                                        $ 7,310,852          $ 7,797,851




3.      Fund Balance with U.S. Treasury

The Fund Balance with the Treasury as reported in the financial statements represents the
unexpended cash balances in the BOP’s accounting records for all the BOP Treasury Symbols at
September 30, 2013 and 2012. The fund balances with the Treasury are presented in the
following table.


     As of September 30, 2013 and 2012
                                                                                    2013                        2012

     Fund Balances
        Trust Fund                                                           $          88,136          $          86,948
        General Funds                                                                  890,784                  1,167,072
        Other Fund Types                                                                54,864                     51,175
          Total Fund Balances with U.S. Treasury                             $       1,033,784          $       1,305,195


     Status of Fund Balances
         Unobligated Balance - Available                                     $         166,706          $         292,284
         Unobligated Balance - Unavailable                                             106,968                    103,631
         Obligated Balance not yet Disbursed                                           705,789                    858,907
         Other Funds (With)/Without Budgetary Resources                                 54,321                     50,373
           Total Status of Fund Balances                                     $       1,033,784          $       1,305,195




     U.S. Department of Justice
                                     These notes are an integral part of these financial statements.


                                                       - 45 -
                 Notes to the Principal Financial Statements



3.      Fund Balance with U.S. Treasury (Continued)

The fund balance with the Treasury as reported in these financial statements and notes have been
adjusted to account for the difference from that reported by the Treasury. The reported balance
in the BOP’s general ledger account, Fund Balance with the Treasury, before any adjustments,
was $1,402 and $790 thousand greater than the actual fund balance reported by the Treasury as
of September 30, 2013 and 2012, respectively. Routinely, two types of differences arise. First,
differences are created between the accounting records of the BOP and the Treasury because of
the timing of transaction inputs corresponding with cash receipts and disbursements. Second,
differences are created by data input errors and remain until the necessary correcting entries are
processed by the BOP’s or the Treasury’s accounting systems. The BOP operates a
decentralized accounting system with 112 agency location codes. Any cause for reconciliation
must be done individually by location.

For the Trust Fund, this amount represents the aggregate balance of the Trust Fund’s cash
accounts with the Treasury under the account symbol 15X8408. This item also represents the
total amount of all obligated and unobligated undisbursed account balances with the Treasury as
reflected in the Trust Fund’s records. The Trust Fund’s general ledger balance for Fund Balance
with the Treasury, before any adjustments, was $976 and $500 thousand greater than the actual
amount reported by each of the BOP’s accounting stations to the Treasury as of September 30,
2013 and 2012, respectively.

The unobligated balance for annual and multi-year budget authority may be used to incur new
obligations for the purpose specified by the appropriation act. Annual and multi-year budget
authority expires at the end of its period of availability. During the first through the fifth expired
years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate
or bona fide need arising in the fiscal year for which the appropriation was made. The
unobligated balance for no-year budget authority may be used to incur obligations indefinitely
for the purpose specified by the appropriation act. No-year budget authority unobligated
balances are still subject to the annual apportionment and allotment process.

The total status of fund balances includes funds without budgetary resources. Other funds
without budgetary resources are composed of prisoner monies held in trust by the Treasury and
certain receivables and receipts of cash that are in suspense, clearing, deposit, or general fund
accounts.




     U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 46 -
                 Notes to the Principal Financial Statements



4.      Cash and Monetary Assets

Cash and Monetary Assets, as reported in the financial statements, represent the total cash and
cash equivalents under the control of the BOP as of September 30, 2013 and 2012, respectively.


              As of September 30, 2013 and 2012
                                                                    2013                       2012
              Cash
                 Imprest Funds                               $              543       $                802



The BOP’s cash account is minimal given that the BOP does not, for the most part, maintain
cash in commercial bank accounts. The BOP’s cash account consists of imprest funds totaling
$543 and $802 thousand as of September 30, 2013 and 2012, respectively. All of the listed
amounts are available to pay current liabilities and finance future authorized purchases.


5.      Investments, Net

The Trust Fund invests in non-marketable market-based Treasury securities issued by the Bureau
of the Public Debt. These securities are available to the public but cannot be resold. These
securities are purchased and redeemed at par value (the value at maturity) exclusively through
the Treasury’s Finance and Funding Branch, see Note 1.G. When securities are purchased, the
investment is recorded at par value. Premiums and/or discounts are amortized through the end of
the reporting period. As of September 30, 2013 and 2012, all Trust Fund security investments
have matured. Therefore, the respective investment balances are zero.


6.      Accounts Receivable, Net

Accounts Receivable represents the net amounts due to the BOP as of September 30, 2013 and
2012, respectively, as shown in the following table.


               As of September 30, 2013 and 2012
                                                                           2013                 2012
               Intragovernmental
                   Accounts Receivable                               $        4,348        $          3,653

               With the Public
                  Accounts Receivable                                         5,053                7,361
                     Total Accounts Receivable, Net                  $        9,401        $      11,014




     U.S. Department of Justice
                                    These notes are an integral part of these financial statements.


                                                      - 47 -
                    Notes to the Principal Financial Statements



7.      Inventory and Related Property, Net

The Trust Fund Commissary inventory purchased for resale as of September 30, 2013 and 2012
is presented in the following table.


                As of September 30, 2013 and 2012
                                                                                2013                  2012
                Inventory
                  Inventory Purchased for Resale                          $        18,775       $         19,609




8.      General Property, Plant and Equipment, Net

PP&E, as reported in the financial statements, are recorded at the acquisition cost net of
accumulated depreciation at September 30, 2013 and 2012, respectively. See Note 1.J for
method of depreciation, capitalization thresholds, and useful lives.


      As of September 30, 2013                   Acquisition           Accumulated            Net Book             Useful
                                                    Cost               Depreciation            Value                Life
      Land and Land Rights                     $     171,046          $             -       $     171,046           N/A
      Construction in Progress                         71,186                       -              71,186           N/A
      Buildings, Improvements, and
          Renovations                                 9,517,649               (4,175,933)           5,341,716      2-30 yrs
      Other Structures & Facilities                     866,400                 (498,687)             367,713       20 yrs
      Vehicles                                          195,457                 (119,982)              75,475      6-10 yrs
      Equipment                                         317,190                 (182,233)             134,957       10 yrs
      Assets Under Capital Lease                         89,625                  (53,775)              35,850      5-30 yrs
      Leasehold Improvements                             83,750                  (54,625)              29,125      2-20 yrs
      Internal Use Software                              26,178                  (18,141)               8,037       5-7 yrs
      Internal Use Software in Development                4,740                        -                4,740        N/A
      Total                                    $     11,343,221       $       (5,103,376)   $       6,239,845




     U.S. Department of Justice
                                        These notes are an integral part of these financial statements.


                                                          - 48 -
                    Notes to the Principal Financial Statements



8.      General Property, Plant and Equipment, Net (continued)


      As of September 30, 2012                   Acquisition           Accumulated            Net Book       Useful
                                                    Cost               Depreciation            Value          Life
      Land and Land Rights                     $     170,096          $             -       $     170,096     N/A
      Construction in Progress                       229,151                        -             229,151     N/A
      Buildings, Improvements, and
          Renovations                                 9,086,681            (3,878,912)           5,207,769   2-30 yrs
      Other Structures & Facilities                     850,789              (461,837)             388,952    20 yrs
      Vehicles                                          184,371              (113,288)              71,083   6-10 yrs
      Equipment                                         291,635              (169,196)             122,439    10 yrs
      Assets Under Capital Lease                         89,625               (50,788)              38,837   5-30 yrs
      Leasehold Improvements                             81,960               (46,161)              35,799   2-20 yrs
      Internal Use Software                              42,326               (26,230)              16,096    5-7 yrs
      Internal Use Software in Development                6,686                     -                6,686     N/A
      Total                                    $     11,033,320       $    (4,746,412)      $    6,286,908



Leasehold improvements reflect capital improvements made to facilities occupied but not owned
by the BOP. Capital improvements made to buildings and other structures owned by the BOP
are reflected as buildings and other structures and facilities. The BOP had capitalized property
purchases from federal sources and from the public. These purchases totaled $11,222 and
$17,597 thousand from federal sources, and $338,757 and $282,830 thousand from the public,
for the fiscal years ended September 30, 2013 and 2012, respectively.

Based upon early implementation of DOJ FMPM 13-12, the BOP revised its method for
reporting the capitalization of IUS which caused a decrease in the PP&E balance by $8,787
thousand as described in – Note 22.


9.      Other Assets

Intragovernmental other assets include an advance to the United States District Court to initiate
the condemnation proceeding for the acquisition of a prison facility in Illinois. The majority of
other assets with the public consists of farm livestock. The amounts as of September 30, 2013
and 2012 are presented in the following table.




     U.S. Department of Justice
                                        These notes are an integral part of these financial statements.


                                                          - 49 -
                   Notes to the Principal Financial Statements



9.      Other Assets (continued)


                 As of September 30, 2013 and 2012
                                                                      2013                   2012
                 Intragovernmental
                     Advances and Prepayments                   $                 -     $       165,000

                 Other Assets With the Public
                    Farm Livestock                              $         4,189         $         4,701




10. Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. These liabilities as of September 30, 2013
and 2012, respectively, are presented in the following table.


        As of September 30, 2013 and 2012
                                                                                      2013                2012
        Intragovernmental
            Accrued FECA Liabilities                                          $       157,948       $      152,110
            Other Unfunded Employment Related Liabilities                                 752                  761
            Other                                                                       4,479                5,315
               Total Intragovernmental                                                163,179              158,186

        With the Public
           Actuarial FECA Liabilities                                             956,439                   853,362
           Accrued Annual and Compensatory Leave Liabilities                      171,578                   171,739
           Environmental and Disposal Liabilities (Note 11)                        66,225                    64,222
           Contingent Liabilities (Note 14)                                         4,685                     4,230
           Capital Lease Liabilties (Note 12)                                       8,716                    16,627
           Other                                                                  113,384                    99,979
               Total With the Public                                            1,321,027                 1,210,159
               Total Liabilities not Covered by Budgetary Resources             1,484,206                 1,368,345
               Total Liabilities Covered by Budgetary Resources                   537,078                   619,689
               Total Liabilities                                              $ 2,021,284           $     1,988,034




     U.S. Department of Justice
                                      These notes are an integral part of these financial statements.


                                                        - 50 -
                Notes to the Principal Financial Statements



11. Environmental and Disposal Liabilities

The BOP operates 119 facilities in over 30 States and Territories and is subject to rigorous
Federal, state, and local environmental regulations applicable to the facility locations. Per
SFFAS No. 5, SFFAS No. 6, Accounting for Property, Plant, and Equipment, and Technical
Release No. 2, Determining Probable and Reasonably Estimable for Environmental Liabilities in
the Federal Government, Federal agencies are required to recognize liabilities for environmental
clean-up costs when the future outflow or sacrifice of resources is probable and reasonably
estimable. The BOP exercises due care in determining the presence of contamination through
regularly scheduled testing required by Facilities Management Policy. If, as a result of the
testing, environmental contamination is detected on BOP owned property or on non-BOP
property but BOP is determined to be the agent of the contamination, the BOP will clean up the
contamination as soon as possible. The liability is recognized immediately.

As environmental-related clean-up costs are accomplished, the prior established liability will be
reduced. Additionally, estimates will be revised periodically to account for material changes due
to inflation, deflation, technology, or applicable laws and regulations. Any material changes in
the estimated total clean-up costs will be expensed when re-estimates occur and the liability
balance adjusted.

Firing Ranges
The BOP operates firing ranges on 67 of the sites where its institutions are located. Use of these
firing ranges generates waste consisting primarily of lead shot and spent rounds from rifles,
shotguns, pistols, and automatic weapons. At operational firing ranges, lead-containing bullets
are fired and eventually fall to the ground at or near the range. As of September 30, 2012, BOP
management determined their estimated clean-up liability to be $26,935 thousand. In FY 2013,
BOP management adjusted the estimated clean-up liability by the current U.S. inflation rate as
determined by the Treasury and as such determined that an estimated firing range clean-up
liability of $27,820 thousand, based on an inflation rate of 1.7 percent, should be recorded. In FY
2013, the liability cost for firing ranges increased $885 thousand.

Asbestos
Section 112 of the Clean Air Act requires the U.S. Environmental Protection Agency (EPA) to
develop and enforce regulations to protect the general public from exposure to airborne
contaminants that are known to be hazardous to human health. On March 31, 1971, the EPA
identified asbestos as a hazardous pollutant, and on April 6, 1973, EPA first promulgated the
Asbestos National Emissions Standards for Hazardous Air Pollutants (NESHAP).




  U.S. Department of Justice
                                These notes are an integral part of these financial statements.


                                                  - 51 -
                 Notes to the Principal Financial Statements



11.    Environmental and Disposal Liabilities (continued)

The BOP conducted a review of 46 institutions that were built prior to 1980; the review provided
an estimate of the extent of friable and non-friable Asbestos Containing Materials (ACM)
remaining in each of the institutions as of October 30, 2009. As of September 30, 2012, BOP
management determined their estimated clean-up liability to be $37,287 thousand. In FY 2013,
BOP Management decreased the clean-up liability in the amount of $78 thousand for the
abatement of asbestos at two locations. In addition, BOP Management increased the clean-up
liability in the amount of $538 thousand due to additional asbestos found at three locations and in
the amount of $658 thousand by the current U.S. inflation rate of 1.7 percent as determined by
the Treasury. In FY 2013, BOP management recorded a clean-up liability in the amount of
$38,405 thousand, a $1,118 thousand increase in liability cost for asbestos from the previous
year.


12.   Leases

Capital Leases

The tables that follow represent a 25-year capital lease for a Federal Transfer Center in
Oklahoma City. The lease agreement, which will expire in fiscal year 2019, calls for semi-
annual payments of $4.5 million for 20 years; the remaining five years (lease years 21 through
25) will be land rental payments only. The BOP paid a total of $9.1 million in payments during
the fiscal year ended September 30, 2013.


        As of September 30, 2013 and 2012

        Capital Leases                                                   2013                  2012

        Summary of Assets Under Capital Lease
           Land and Buildings                                       $       89,625        $          89,625
           Accumulated Amortization                                        (53,775)                 (50,788)
              Total Assets Under Capital Lease (Note 8)             $       35,850        $          38,837




  U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                    - 52 -
                Notes to the Principal Financial Statements



12.   Leases (continued)

Future Capital Lease Payments


        Future Capital Lease Payments Due
                                                                                                          Land and
           Fiscal Year                                                                                    Buildings
               2014                                                                                   $         9,073
               2015                                                                                                 32
               2016                                                                                                 32
               2017                                                                                                 32
               2018                                                                                                 32
               After 2018                                                                                           32
                Total Future Capital Lease Payments                                                   $         9,233
           Less: Imputed Interest                                                                                (517)
               FY 2013 Net Capital Lease Liabilities                                                  $         8,716
               FY 2012 Net Capital Lease Liabilities                                                  $        16,627

                                                                              2013                          2012
        Net Capital Lease Liabilities not Covered by
           Budgetary Resources                                          $          8,716              $       16,627




13.   Other Liabilities

Other liabilities as of September 30, 2013 and 2012, totaled $208 million and $229 million,
respectively. The majority of Intragovernmental Other Liabilities are composed of tenant
allowances for operating leases, monies received from prisoner funds, and certain receipts of
cash that are in suspense, clearing, deposit, or general fund accounts that are owed to the
Treasury. Other Liabilities With the Public are composed of future funded energy savings
performance contracts and utilities. All other liabilities are current and are presented in the
following table.




  U.S. Department of Justice
                                    These notes are an integral part of these financial statements.


                                                       - 53 -
                 Notes to the Principal Financial Statements



13.   Other Liabilities (Continued)


      As of September 30, 2013 and 2012
                                                                                2013                  2012
      Intragovernmental
          Employer Contributions and Payroll Taxes Payable                 $       24,952        $      61,563
          Other Post-Employment Benefits Due and Payable                              411                  965
          Other Unfunded Employment Related Liabilities                               752                  761
          Other Accrued Liabilities                                                     1                    -
          Advances from Others                                                        249                  274
          Other Liabilities                                                         4,876                5,585
            Total Intragovernmental                                                31,241               69,148

      With the Public
         Other Accrued Liabilities                                                  6,018                5,933
         Advances from Others                                                       8,349                8,202
         Liability for Nonfiduciary Deposit Funds
          and Undeposited Collections                                             54,888                51,199
         Other Liabilities                                                       107,366                94,046
            Total With the Public                                                176,621               159,380
            Total Other Liabilities                                        $     207,862         $     228,528




14. Contingencies and Commitments

Contingencies include various administrative proceedings, legal actions, and claims related to
contract disputes and employee and inmate claims; see Note 1.M for more details. For legal
actions where management and the Chief Counsel consider adverse decisions “probable” or
“reasonably possible” and the amounts are reasonably estimable, information is disclosed below.
The amounts as of September 30, 2013 and 2012 are presented in the following table.


                                                   Accrued                      Estimated Range of Loss
                                                  Liabilities                   Lower            Upper
        As of September 30, 2013
             Probable                         $         4,685               $       4,685         $    18,625
             Reasonably Possible                                                   38,957              61,436

        As of September 30, 2012
             Probable                         $         4,230               $        4,230        $    10,570
             Reasonably Possible                                                     8,229             20,261




  U.S. Department of Justice
                                    These notes are an integral part of these financial statements.


                                                      - 54 -
               Notes to the Principal Financial Statements



15.    Funds from Dedicated Collections

The Trust Fund is a self-sustaining trust revolving fund account that is funded through the sale of
goods and services to inmates. The Trust Fund receives no appropriated funds, and the majority
of its funding is through revenues generated by the sale of merchandise, telephone services, and
electronic messaging to inmates. Regular items sold through institution commissaries are
marked-up 30 percent from their per unit cost. The Trust Fund Commissary inventories are
comprised of merchandise on-hand at reporting sites located in the United States and Puerto
Rico. Inventory sales are restricted to inmates and consist primarily of foods and beverages,
hobby craft items, stamps, clothing, health and hygiene commodities, and other sundry items.
Commissary items are stated at latest acquisition cost, which is adjusted using the CPI for the
year to approximate the value of the inventory under the FIFO accounting methodology.

Cash receipts collected from the public for funds from dedicated collections are deposited in the
Treasury, which uses the cash for general Government purposes. The Trust Fund invests in non-
marketable market-based Treasury securities issued by the Bureau of Public Debt. These
securities are available to the public but cannot be resold. These securities are purchased and
redeemed at par value (the value at maturity) exclusively through the Treasury’s Finance and
Funding Branch. When securities are purchased, the investment is recorded at par value.

Beginning in 1995, the Trust Fund was granted authority to invest funds in excess of operating
needs in securities guaranteed by the Treasury. Investments in U.S. Government securities are
reported at cost net of amortized discounts. Discounts are amortized into interest income over
the term of the investment. The Trust Fund’s intent is to hold investments to maturity, unless
they are needed to sustain the operations of the Trust Fund. Interest received on securities is
captured in the Trust Fund and is used to defray its general operating expenses. The following
table shows funds from dedicated collections as of September 30, 2013 and 2012.




  U.S. Department of Justice
                                These notes are an integral part of these financial statements.


                                                  - 55 -
                Notes to the Principal Financial Statements



15.   Funds from Dedicated Collections (continued)


           As of September 30, 2013 and 2012
                                                                              2013                  2012
                                                                         Funds from             Funds from
                                                                          Dedicated              Dedicated
                                                                         Collections            Collections
           Balance Sheet
           Assets
              Fund Balance with U.S. Treasury                            $     88,136           $    86,948
              Other Assets                                                     27,399                27,298
                 Total Assets                                            $    115,535           $   114,246

            Liabilities
               Accounts Payable                                          $     10,592           $        14,775
               Other Liabilities                                               11,250                    13,259
                   Total Liabilities                                     $     21,842           $        28,034

            Net Position
               Cumulative Results of Operations                          $     93,693           $    86,212
                  Total Net Position                                     $     93,693           $    86,212
                  Total Liabilities and Net Position                     $    115,535           $   114,246

            Statement of Net Cost
               Gross Cost of Operations                                  $    366,668           $   361,981
               Less: Earned Revenue                                           370,123               360,290
                  Net Cost of Operations                                 $     (3,455)          $     1,691

            Statement of Changes in Net Position
               Net Position Beginning of Period                          $     86,212           $        83,557

               Other Financing Sources                                          4,026                     4,346
                  Total Financing Sources                                       4,026                     4,346
               Net Cost of Operations                                           3,455                    (1,691)
               Net Change                                                       7,481                     2,655
               Net Position at End of Period                             $     93,693           $        86,212




  U.S. Department of Justice
                                       These notes are an integral part of these financial statements.


                                                         - 56 -
                    Notes to the Principal Financial Statements



16.    Net Cost of Operations by Suborganization

The following tables show the net cost of operations for each of the BOP’s goals by
suborganization for the fiscal years ended September 30, 2013 and 2012.

  For the Fiscal Year Ended September 30, 2013
                                                                       Suborganizations
                                                              Trust Fund                BOP                      Consolidated

  Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

      Gross Cost                                          $               -        $            7,907        $            7,907
      Less: Earned Revenue                                                -                         -                         -
      Net Cost of Operations                                              -                     7,907                     7,907

  Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
         State, Local, Tribal, and International Levels

      Gross Cost                                                   366,668                  7,249,234                 7,615,902
      Less: Earned Revenue                                         370,123                     49,470                   419,593
      Net Cost of Operations                                        (3,455)                 7,199,764                 7,196,309

  Net Cost of Operations                                  $         (3,455)        $        7,207,671        $        7,204,216



  For the Fiscal Year Ended September 30, 2012
                                                                       Suborganizations
                                                              Trust Fund                BOP                      Consolidated

  Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

      Gross Cost                                          $               -        $            7,242        $            7,242
      Less: Earned Revenue                                                -                         -                         -
      Net Cost of Operations                                              -                     7,242                     7,242

  Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
         State, Local, Tribal, and International Levels

      Gross Cost                                                   361,981                  7,137,596                 7,499,577
      Less: Earned Revenue                                         360,290                     50,015                   410,305
      Net Cost of Operations                                         1,691                  7,087,581                 7,089,272

  Net Cost of Operations                                  $          1,691         $        7,094,823        $        7,096,514




  U.S. Department of Justice
                                           These notes are an integral part of these financial statements.


                                                              - 57 -
               Notes to the Principal Financial Statements



17.   Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed
and under-reimbursed) portion of the full costs of goods and services received by the BOP from
a providing Federal entity that is not part of the DOJ. In accordance with SFFAS No. 30, Inter-
Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and
Concepts, the material Imputed Inter-Departmental financing sources recognized by the BOP are
the cost of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are paid by
other Federal entities, and any un-reimbursed payments made from the Treasury Judgment Fund
on behalf of the BOP. The Treasury Judgment Fund was established by the Congress and funded
at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements
negotiated by the Department on behalf of agencies, as well as certain types of administrative
awards. Interpretation of Federal Financial Accounting Standards Interpretation No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize liabilities
and expenses when unfavorable litigation outcomes are probable and the amount can be
estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5 requires that employing agencies recognize the cost of pensions and other
retirement benefits during their employees’ active years of service. SFFAS No. 5 requires OPM
to provide cost factors necessary to calculate cost. OPM actuaries calculate the value of pension
benefits expected to be paid in the future, and then determine the total funds to be contributed by
and for covered employees, such that the amount calculated would be sufficient to fund the
projected pension benefits. For employees covered by CSRS, the cost factors are 32.3 percent of
basic pay for regular, 54.9 percent law enforcement officers, 24.6 percent regular offset, and 48.1
percent law enforcement officers offset. For employees covered by FERS, the cost factors are
14.2 percent of basic pay for regular and 30.7 percent for law enforcement officers. For
employees covered by FERS-RAE, the cost factors are 14.2 percent of basic pay for regular and
30.7 percent for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and
employer contributions. In addition, the cost of other retirement benefits, which include health
and life insurance that are paid by other Federal entities, must also be recorded.




  U.S. Department of Justice
                                These notes are an integral part of these financial statements.


                                                  - 58 -
                   Notes to the Principal Financial Statements



17.     Imputed Financing from Costs Absorbed by Others (continued)

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, and FASAB Interpretation No.
6, Accounting for Imputed Intra-Departmental Costs: An Interpretation of SFFAS No. 4, are the
unreimbursed portion of the full costs of goods and services received by the BOP from a
providing entity that is part of the DOJ. Recognition is required for those transactions
determined to be material to the receiving entity. The determination of whether the cost is
material requires considerable judgment based on the specific facts and circumstances of each
type of good or service provided. SFFAS No. 4 also states that costs for broad and general
support need not be recognized by the receiving entity, unless such services form a vital and
integral part of the operations or output of the receiving entity. Costs are considered broad and
general if they are provided to many, if not all, reporting components and not specifically related
to the receiving entity’s output. In accordance with FASAB Interpretation No. 6, the BOP
management reviews Imputed Intra-Departmental Financing Sources quarterly to determine
materiality. As of September 30, 2013 these costs are deemed immaterial and are not reported.


      For the Fiscal Years Ended September 30, 2013 and 2012
                                                                             2013                       2012
      Imputed Inter-Departmental Financing
         Treasury Judgment Fund                                     $              7,521           $         5,597
         Health Insurance                                                        156,882                   176,828
         Life Insurance                                                              484                       460
         Pension                                                                  60,613                    55,133
            Total Imputed Inter-Departmental                        $            225,500           $       238,018
            Total Imputed Financing                                 $            225,500           $       238,018




18. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, Preparation, Submission and
Execution of the Budget. Category A represents resources apportioned for calendar quarters.
Category B represents resources apportioned for Hurricane Sandy.




  U.S. Department of Justice
                                      These notes are an integral part of these financial statements.


                                                        - 59 -
                 Notes to the Principal Financial Statements



18.   Information Related to the Statement of Budgetary Resources (continued)

                                                                                                              Total
                                                                 Direct           Reimbursable             Obligations
                                                               Obligations         Obligations              Incurred
  For the Fiscal Year Ended September 30, 2013
      Obligations Apportioned Under
         Category A                                        $      6,332,041       $      49,470        $       6,381,511
         Category B                                                 638,619                   -                  638,619
      Total                                                $      6,970,660       $      49,470        $       7,020,130

  For the Fiscal Year Ended September 30, 2012
      Obligations Apportioned Under
         Category A                                        $      6,963,830       $     201,031        $       7,164,861




Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have
not been actually or constructively received. This amount includes any orders which may have
been prepaid or advanced but for which delivery or performance has not yet occurred.


              As of September 30, 2013 and 2012

                                                                         2013                   2012
                      UDO Obligations Unpaid                        $        240,296       $      311,154
                      UDO Obligations Prepaid/Advanced                        (2,757)             163,748
                         Total UDO                                  $        237,539       $      474,902



Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount
of time the agency has to spend the funds) and its amount.

Congress established the Trust Fund in 1932 to allow inmates a means to purchase additional
products and services above the necessities provided by appropriated Federal funds. The Trust
Fund is a self-sustaining trust revolving fund account that is funded through sales of goods and
services, rather than annual or no-year appropriations.




  U.S. Department of Justice
                                     These notes are an integral part of these financial statements.


                                                       - 60 -
                      Notes to the Principal Financial Statements



18.     Information Related to the Statement of Budgetary Resources (continued)

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated
and that remains available for obligation based on annual legislative requirements and other
enabling authorities, unless otherwise restricted. The use of unobligated balances is restricted
based on annual legislation requirements and other enabling authorities. Funds are appropriated
on an annual, multi-year, and no-year basis. Appropriated funds shall expire on the last day of
availability and are no longer available for new obligations. Unobligated balances in unexpired
fund symbols are available in the next fiscal year for new obligations unless some restrictions
had been placed on those funds by law. Amounts in expired fund symbols are not available for
new obligations, but may be used to adjust previously established obligations.

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation between the Statement of Budgetary Resources and the Budget of the United
States Government for fiscal year 2012 is shown in the following table. The reconciliation as of
September 30, 2013 is not presented, because the submission of the Budget of the United States
Government (Budget) for FY 2015, which presents the execution of the FY 2013 Budget, occurs
after publication of these financial statements. The Department of Justice Budget Appendix can
be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will be available in
early February 2014.


  For the Fiscal Year Ended September 30, 2012
      (Dollars in millions)
                                                                                               Distributed
                                                       Budgetary           Obligations          Offsetting            Net
                                                       Resources              Incurred             Receipts       Outlays
  Statement of Budgetary Resources (SBR)               $    7,561         $       7,165        $          5       $   6,756


  Funds not Reported in the Budget
                 Expired Funds                                (114)                 (10)                      -             -
                 Reconciling Item 15F3875(YH)                     -                      -                (1)               1
                 Reconciling Item 153220(ZX)                      -                      -                (4)               4


  Other (Rounding)                                              (1)                  (1)                      -             1


  Budget of the United States Government               $    7,446         $       7,154        $              -   $   6,762




  U.S. Department of Justice
                                        These notes are an integral part of these financial statements.


                                                           - 61 -
               Notes to the Principal Financial Statements



19.   Net Custodial Revenue Activity

As of September 30, 2013 and 2012, the BOP collected $46 and $54 thousand respectively, in
collections of fines and penalties, confiscated funds, found money on institution grounds,
inmate’s funds whose whereabouts are unknown and excess meal ticket collections. These
collections were incidental to the BOP’s mission. Since the BOP does not have statutory
authority to use these funds, the BOP remits these funds to the Treasury’s General Fund. As of
September 30, 2013 and 2012, the BOP did not have any custodial liabilities.




  U.S. Department of Justice
                               These notes are an integral part of these financial statements.


                                                 - 62 -
                      Notes to the Principal Financial Statements



20.    Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
       Statement of Financing)

      For the Fiscal Years Ended September 30, 2013 and 2012                            2013                     2012

      Resources Used to Finance Activities

         Budgetary Resources Obligated
           Obligations Incurred                                                  $          7,020,130      $        7,164,861
           Less: Spending Authority from Offsetting Collections and
                  Recoveries                                                                  430,770                 585,244
           Obligations Net of Offsetting Collections and Recoveries                         6,589,360               6,579,617
           Less: Offsetting Receipts                                                            4,994                   5,452
           Net Obligations                                                                  6,584,366               6,574,165

         Other Resources
            Donations and Forfeitures of Property                                                   3                      30
            Transfers-In/Out Without Reimbursement                                                132                 151,645
            Imputed Financing from Costs Absorbed by Others (Note 17)                         225,500                 238,018
            Net Other Resources Used to Finance Activities                                    225,635                 389,693
      Total Resources Used to Finance Activities                                            6,810,001               6,963,858



      Resources Used to Finance Items not Part of the Net Cost of
         Operations
            Net Change in Budgetary Resources Obligated for Goods, Services,
               and Benefits Ordered but not Yet Provided                                       233,737                   (42,540)
            Resources That Fund Expenses Recognized in Prior Periods (Note 21)                  (8,081)                  (32,591)
            Budgetary Offsetting Collections and Receipts That do not
               Affect Net Cost of Operations                                                      4,994                    5,452
            Resources That Finance the Acquisition of Assets                                   (348,972)                (302,363)
            Other Resources or Adjustments to Net Obligated Resources
               That do not Affect Net Cost of Operations                                         (8,787)                       -
      Total Resources Used to Finance Items not Part of the Net Cost
         of Operations                                                                         (127,109)                (372,042)

      Total Resources Used to Finance Net Cost of Operations                     $          6,682,892      $        6,591,816



      Components of Net Cost of Operations That Will not Require
        or Generate Resources in the Current Period

         Components That Will Require or Generate Resources
           in Future Periods (Note 21)                                           $             123,942     $            103,417


         Depreciation and Amortization                                                         393,464                  392,982
         Revaluation of Assets or Liabilities                                                    3,918                    8,299
      Total Components of Net Cost of Operations That Will not
         Require or Generate Resources in the Current Period                                   521,324                  504,698

      Net Cost of Operations                                                     $          7,204,216      $        7,096,514
                                                                                                                                    `

  U.S. Department of Justice
                                               These notes are an integral part of these financial statements.


                                                                  - 63 -
                  Notes to the Principal Financial Statements



21. 	 Explanation of Differences Between Liabilities Not Covered by Budgetary Resources
      and Components of Net Cost of Operations Requiring or Generating Resources in
      Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is no
certainty that budgetary authority will be realized, such as the enactment of an appropriation, are
considered liabilities not covered by budgetary resources. These liabilities totaling $1,484
million and $1,368 million on September 30, 2013 and 2012 respectively, are discussed in Note
10, Liabilities not Covered by Budgetary Resources. Decreases in these liabilities result from
current year budgetary resources that were used to fund expenses recognized in prior periods.
Increases in these liabilities represent unfunded expenses that were recognized in the current
period. These increases along with the change in the portion of exchange revenue receivables
from the public, which are not considered budgetary resources until collected, represent
components of current period net cost of operations that will require or generate budgetary
resources in future periods. The changes in liabilities not covered by budgetary resources and
receivables generating resources in future periods are presented in the following table.

The BOP has authority to record budgetary resources for receivables due from the Public, which
mainly consists of state prisoner billings, before the funds are actually collected. For this reason,
the change in Exchange Revenue receivables from the Public is not presented in the following
table.


   For the Fiscal Years Ended September 30, 2013 and 2012
                                                                                            2013              2012
   Resources that Fund Expenses Recognized in Prior Periods
      Decrease in Accrued Annual and Compensatory Leave Liabilities                     $        (161)    $          -
      Other
        Decrease in Contingent Liabilities                                                          -           (4,333)
        Decrease in Unfunded Capital Lease Liabilities                                         (7,911)          (7,314)
        Decrease in Other Unfunded Employment Related Liabilities                                  (9)            (396)
        Decrease in Other Liabilities                                                               -          (20,548)
          Total Other                                                                          (7,920)         (32,591)
          Total Resources that Fund Expenses Recognized in Prior Periods                $      (8,081)    $    (32,591)

   Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
     Increase in Accrued Annual and Compensatory Leave Liabilities                  $            -        $     1,552
     Increase in Environmental and Disposal Liabilities                                     2,003               1,500
     Other
       Increase in Actuarial FECA Liabilities                                             103,077              92,165
       Increase in Accrued FECA Liabilities                                                 5,838               8,200
       Increase in Contingent Liabilities                                                     455                   -
       Increase in Other Liabilities                                                       12,569                   -
         Total Other                                                                      121,939             100,365
         Total Components of Net Cost of Operations That Will Require
           or Generate Resources in Future Periods                                  $     123,942         $   103,417




  U.S. Department of Justice
                                        These notes are an integral part of these financial statements.


                                                          - 64 -
               Notes to the Principal Financial Statements



22.   Changes in Accounting Principles

Based upon early implementation of DOJ FMPM 13-12, the BOP revised its capitalization
threshold for IUS. The BOP plans to implement real and personal property in FY 2015. The
primary impact of the policy change was an increase in the thresholds for capitalizing and
reporting real property, including leasehold improvements; personal property; and IUS. The
change in accounting principle caused a $8,787 thousand reduction in the overall PP&E balance
and the pre-FY2013 effect is recognized in the FY 2013 beginning balance of cumulative results
of operations on the Consolidated Statement of Changes in Net Position. The effect of the new
policy decreased the IUS balance $8,787 thousand. The BOP will implement the new thresholds
for the remaining PP&E categories in FY 2015.




  U.S. Department of Justice
                               These notes are an integral part of these financial statements.


                                                 - 65 -
This page intentionally left blank. 





               - 66 -
u.s. DEPARTMENT OF JUSTICE 

      BUREAU OF PRISONS 



      REQUIRED SUPPLEMENTARY
            INFORMATION
            (UNAUDITED)




               - 67 ­
This page intentionally left blank. 





               - 68 -
                                           U.S. Department of Justice

                                                Bureau of Prisons

                                     Required Supplementary Information 

                                Consolidated Deferred Maintenance and Repairs

                                 For the Fiscal Year Ended September 30, 2013 





The BOP’s deferred maintenance and repairs is immaterial. The BOP maintains maintenance and
repair schedules to monitor the condition of its PP&E. Due to health and safety concerns for
staff and inmates, the BOP does not defer necessary maintenance and repairs.




  U.S. Department of Justice


                                            - 69 -
                                                                             U.S. Department of Justice 

                                                                                  Bureau of Prisons

                                                                       Required Supplementary Information

                                                                   Combining Statement of Budgetary Resources

                                                                     Broken Down by Major Budget Account

                                                                   For the Fiscal Year Ended September 30, 2013 





Dollars in Thousands                                                                                                                                     2013
                                                                                      S&E                 B&F                 TF                 Total
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                $     212,757       $     123,386       $        59,772    $      395,915

   Recoveries of Prior Year Unpaid Obligations                                            14,780                  -                  -                14,780
   Other Changes in Unobligated Balance                                                  (60,086)                 -                  -               (60,086)
   Unobligated Balance from Prior Year Budget Authority, Net                             167,451            123,386             59,772               350,609
   Appropriations (discretionary and mandatory)                                        6,496,548             30,657                  -             6,527,205
   Spending Authority from Offsetting Collections (discretionary and mandatory)           45,008                859            370,123               415,990
Total Budgetary Resources                                                         $    6,709,007      $     154,902       $    429,895       $     7,293,804


Status of Budgetary Resources:
    Obligations Incurred                                                          $    6,569,425      $         88,476    $    362,229       $     7,020,130
    Unobligated Balance, End of Period:
         Apportioned                                                                      32,613             66,427                  -                99,040
         Exempt from Apportionment                                                             -                  -             67,666                67,666
         Unapportioned                                                                   106,969                 (1)                 -               106,968
    Total Unobligated Balance - End of Period                                            139,582             66,426             67,666               273,674
 Total Status of Budgetary Resources:                                             $    6,709,007      $     154,902       $    429,895       $     7,293,804


Change in Obligated Balance:
   Unpaid Obligations:
        Unpaid obligations, Brought Forward, October 1                            $      744,604      $      96,272       $      28,069      $       868,945
        Obligations Incurred                                                           6,569,425             88,476             362,229            7,020,130
        Outlays, Gross                                                                (6,654,424)          (139,494)           (369,080)          (7,162,998)
        Recoveries of Prior Year Unpaid Obligations                                      (14,780)                 -                   -              (14,780)
        Unpaid Obligations, End of Period                                                644,825             45,254              21,218              711,297
   Uncollected Payments:
        Uncollected Payments from Federal Sources, Brought Forward, October 1               (9,146)                  -               (892)           (10,038)
        Change in Uncollected Customer Payments from Federal Sources                         5,167                (782)               145              4,530
        Uncollected Customer Payments from Federal Sources                                  (3,979)               (782)              (747)            (5,508)
   Memorandum (non-add) Entries:
        Obligated balance, Start of Period                                        $     735,458       $         96,272    $        27,177    $      858,907
         Obligated balance, End of Period                                         $     640,846       $         44,472    $        20,471    $      705,789


Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                            6,541,556                31,516         370,123             6,943,195
   Less: Actual Offsetting Collections (discretionary and mandatory)                      50,175                    77         370,268               420,520
   Change in Uncollected Customer Payments from Federal Sources                            5,167                  (782)            145                 4,530
       (discretionary and mandatory)
   Budget Authority, Net (discretionary and mandatory)                            $    6,496,548      $         30,657    $             -    $     6,527,205


    Outlays, Gross (discretionary and mandatory)                                  $    6,654,424      $     139,494       $    369,080       $     7,162,998
    Less: Actual Offsetting Collections (discretionary and mandatory)                     50,175                 77            370,268               420,520
    Outlays, Net (discretionary and mandatory)                                         6,604,249            139,417             (1,188)            6,742,478
    Less: Distributed Offsetting Receipts                                                  4,994                  -                  -                 4,994
    Agency Outlays, Net (discretionary and mandatory)                             $    6,599,255      $     139,417       $     (1,188)      $     6,737,484




   U.S. Department of Justice

                                                                                  - 70 -
                                                                             u.s. DE'plu1:mE'ut of Jus tiCE' 

                                                                                   BurE'au of Prisons 

                                                                       RE'quh'E'd SupplE'mE'ntary Information 

                                                                   Combining StatE'Ul('ut of BudgE'tary Rf'SO ul'c('S 

                                                                     BrokE'D DowD by Major BudgE't Accoun t 

                                                                   For tlK' Fiscal YE'ar EndE.'d SE'ptE'mlwr 30, 2012 





                                                                                  ,..
                                                                                                     "" 
                                l!!!!
                                                                                                                        ]I
Bod" ..,y & .. u«"
   UDObIipI<d Balance, ~'Fonnrd. 0cr0I!<r 1                                           n ~ ,98~
                                                                                                   •    197,447              ~1U81           JlII,81l

     ~ovm..   of Prior Yo£ U,.ucI Ob~                  
                               2J,lIB                                                23,30
     0II>0r ~ in UDObli~_ BaIoD<:< 
                                                   ( 1,862)                                               (1 ,861)
     U..,.,.;~_ BaI~ from !'ric.- Y... BI>IIg« AlJthori1y, Not 
                      147,~11           197,447              ~,381          401,339
     Appropri_ (discaboll&fJl ODd -1mJ') 
                                          6 ) 4J,~8\           ~ 4, OOO                          6)97)11
   ~ AlIIlIonIy fro", ~ CoIloctioas (discmiocwy ODd -lOry) 
                           ~ O ,~~I         I~I , O\S         J60,290            ~61 , 8~
Tota l B_cI;"0r:-' R.......... 
                                                    6.H l ,6-H
                                                                                                   •    -«11,-161
                                                                                                                    •     ~1 6, 61 1       1,s.60.17'


S..,a • • f Bod; " or:r R .......... :
    0bIipIi0as iDcorud                                                              6)28,886            119,076           j~, 8 99         1,164,861


          .......... 

     UIIObIi!:_ BaImo., EDd of P<riod:


         f=q>I fromApponi<mmoal
                                                                                      109,126           123,316
                                                                                                                             ~,1 72
                                                                                                                                             B2 , ~11
                                                                                                                                              ~ 9,m

         UmWO rtioDOd                                                                 103,631
     Tot&! UDObIipI<d BaImoo _ EDII of Ptsiod                                         212.7) J          123386               )9,m
T otal S,.... . fB o<I;" . ry R=V<. "                                               6.HU-U
                                                                                                   •    401,-161          ~1 6,671



Cha ; , ia 0blic• •rd Bob .,,,
     U""oicJ.Ob~~""': 

             UIq>oicJ. ob~p'bo ", Brouy.. Forward, Octobor 1 
                        80 ~ ,On          12l.9!2              24,887        1.0) 1,944
          Oblipotioos iDrurrrd 
                                                    6,)28,186           219,076           J~,899           1.164,861
          Outbys, Groo. 
                                                          ( 6 :;6~,969)       (404, Ji6)        (3 )3,717)       (7.324,472)
          ~ovm.. of Prior Yea:r U""oicJ. ()bIj~ .        
                            OJ)8ij
          U""oicJ. Oblipotioos, EDd o r _ 
                                           744,604            96,272              '.~
     U~Paym<DII:
        U..,o&ct<d Po}- from F«lto:ol           s-u..
                                              Brouy. Forwnd, Oc"'.... 1                 (9,154)                              (1.02ij         (I0,8B1)
        ~ .. UII<Oli«:t<d Cw......- POl_ from F~ S~                                                                                              ~
        UD<O!lr<t<d Cwt<ao<r P0J"lD"lh from F~ Saurcn                                      '"'
                                                                                        19. 146)                                 '"
                                                                                                                                (192)        ( 10,031)
     M<mDImIhm (DOD--add) Enb:i<s: 

        Oblipol<d b.w.c.. St>n ofP<riod 
                                             795,221           221 ,982             2J . 1 ~9     1.041 ,061
          Oblipot<d b.w.c.. EDd of P<riod                                             735,4)8            96,2 72             17. 111        !58,907


Bd; ...~· .'. .nto. ri. y u d Oa.b y •• N, t:
  Bod~ AUIIIority, Oro.. (di<=tioJwy ODd rIWIdotory)                                6,)94.1 31          lO5 ,0 1~         ~.m              7.1 ~ , 4J7
  L= AcbI..ll ~ Collecticm (dis=tio<wy ODd mandalay)                                   51,259           1~1 , 01~         360,426            )62,700
  Chonu ill U"""li«:t<d Cwlom<f PI } _ from Frdffitl ~                                     ,~                                                    ,~


             (~"""mmdo1"",)                 
                                                                                    '"
                                                                                                   •     "'" •
     B""~       AImIoriIy, Nfl (discmiomry ODd """","tory) 
                        6,5../J,51l                                            6.5'7,511


     OIIII.a)"l, Groos (di>cr<ti0lW)' ODd maDdoi"",) 
                              6,56),969           4Q.I , 7~         J)J .71 7        1,324,471
     r...., AcIu.oI otr..niD~ Collecticm (~0Dd mar>:b1<lf)') 
                         51 ."9           151,015                              )62,700
     OIIII.a)"l, Net (discm:iO<W)' ODd mandalay) 
                                  6,514,7 10          2~J ,77 1
     r....
     ~
              Dirtribut<d O ~~                       

                o.m.y.. Not (di>cr<tio"'"'Y ODd mmdoIory) 

                                                                                        5,452
                                                                                    6,589,158      ,    2SJ.771              (6,1l1li)




    U.S. Departmellt Of Justice

                                                                              - 71 ­
This page intentionally left blank. 





               - 72 -
u.s. DEPARTMENT OF JUSTICE 

      BUREAU OF PRISONS 



        OTHER INFORMATION
           (UNAUDITED)




               - 73 ­
This page intentionally left blank. 





               - 74 -
                 Other Information


                                  U.S. Department of Justice
                                       Bureau of Prisons
                               Combined Schedule of Spending
                        For the Fiscal Year Ended September 30, 2013
                                    (Dollars in Thousands)


                                                                           Total
What Money is Available to Spend?
Total Resources                                                        $      7,293,804
Less: Amount Available but Not Agreed to be Spent                               166,706
Less: Amount Not Available to be Spent                                          106,968
Total Amounts Available to be Spent                                    $      7,020,130



How was the Money Spent?
Personnel Compensation and Benefits
              1100       Personnel Compensation                        $      2,649,349
              1200       Personnel Benefits                                   1,314,810
              1300       Former Personnel                                         1,769

Other Program Related Expenses
               2100      Travel & Transportation of Persons            $         28,449
               2200      Transportation of Things                                14,445
               2300      Rent, Communications, and Utilities                    309,322
               2400      Printing and Reproduction                                  893
               2500      Other Contractual Services                           1,758,933
               2600      Supplies and Materials                                 866,966
               3100      Equipment                                               58,987
               3200      Land and Structures                                     (8,550)
               4100      Grants, Subsidies, and Contributions                     5,806
               4200      Insurance Claims and Indemnities                        14,700
               4300      Interest and Dividends                                   4,251
Total Amounts Agreed to be Spent                                       $      7,020,130

Who did the Money Go To?
              For Profit                                               $      2,551,047
              Government                                                      1,709,009
              Employees                                                       2,637,146
              Other                                                             122,928
Total Amounts Agreed to be Spent                                       $      7,020,130




U.S. Department of Justice


                                                - 75 -
               Other Information


TREASURY SYMBOL MATRIX

 15131060                           Salaries and Expense
 15121060                           Salaries and Expense
 15111060                           Salaries and Expense
 15101060                           Salaries and Expense
 15091060                           Salaries and Expense
 15081060                           Salaries and Expense
 1513/141060                        Salaries and Expense
 1512/131060                        Salaries and Expense
 1511/121060                        Salaries and Expense
 1510/111060                        Salaries and Expense
 1509/101060                        Salaries and Expense
 1508/091060                        Salaries and Expense
 1507/081060                        Salaries and Expense
 7515131060                         Public Health Services
 7515121060                         Public Health Services
 7515111060                         Public Health Services
 7515101060                         Public Health Services
 7515091060                         Public Health Services
 7515081060                         Public Health Services
 15X1003                            Buildings and Facilities
 15X8408                            Revolving Trust Fund
 15X1060                            Salaries and Expense
 15X6085                            Deposit Fund (Prisoners)
 151060                             General Fund (Forfeiture Unclaimed)
 151099                             General Fund (Fines, Penalties, Forfeiture)
 153200                             General Fund (Miscellaneous Receipts)
 153220                             General Fund (Miscellaneous Receipts)
 151210                             Conscience Fund
 151299                             Gifts to U.S.
 151435                             Miscellaneous Interest Received
 153502                             Clearing Account (Budget)
 15F3500                            Clearing Account (Budget)
 15F3880.10                         Clearing Account (Budget)
 15F3875.10                         Clearing Account (Budget)
 15X6275.10                         Deposit Fund (State/Local Taxes)
 20X1807                            BOP Refund Erroneously Received
 20X6133                            BOP Payment Unclaimed Money
 15_7001                            Elimination Fund
 15_7002                            Elimination Fund



 U.S. Department of Justice


                                   - 76 -
                             Other Information


PRISONER CAPACITY REQUIREMENTS

The numbers in the chart reflect the additional requested, funded, and partially funded capacity
(number of beds) required for each established facility.

Note that the estimated construction completion dates supplied below are projections, not fixed
dates. Also, once construction is completed at an institution, that institution does not
immediately begin accepting inmates, as there are necessary activation and preparatory
procedures that must be enacted beforehand.
                                      REQUESTED, FUNDED, OR PARTIALLY FUNDED CAPACITY REQUIREMENTS

                                               2014    2015    2016     2017   2018   2019   2020    2021   2022   2023   Total
ADDITIONAL CAPACITY:
FCI Mendota, CA (Medium/Camp)                                                                                                 -
FCI Berlin, NH (Medium/Camp)                   752                                                                            752
FCI Aliceville, AL (Secure Female/Low Camp)    600     339                                                                    939
FCI Hazelton, WV (Medium/Camp)                 256     680      344                                                         1,280
USP Yazoo City, MS (High/Camp)                 256     576      384                                                         1,216
USP Thomson, IL (High/Camp)                            200    1,900                                                         2,100
USP Bennettsville, SC (High/Camp)                                                                                             -
USP Letcher County, KY (High/Camp)                                                                                            -
FCI Leavenworth, KS (Medium/Camp)                                                                                             -
FCI Florida (Medium/Camp)                                                                                                     -
FCI South Central (Medium/Camp)                                                                                               -
USP South Central (High/Camp)                                                                                                 -
USP El Reno, OK (High/Camp)                                                                                                   -
USP North Central/Pekin, IL (High/Camp)                                                                                       -
USP Southeast (High/Camp)                                                                                                     -
FCI Northeast (Medium/Camp)                                                                                                   -
FCI South Central (Medium/Camp)                                                                                               -
FCI Western (Medium/Camp)                                                                                                     -
FCI North Central (Medium/Camp)                                                                                               -
USP Mid-Atlantic (High/Camp)                                                                                                  -
USP Western (High/Camp)                                                                                                       -
USP Mid-Atlantic (High/Camp)                                                                                                  -
FCI Northeast (Medium/Camp)                                                                                                   -
USP South Central (High/Camp)                                                                                                 -
USP Mid-Atlantic (High/Camp)                                                                                                  -
FCI Southeast (Medium/Camp)                                                                                                   -
FCI South Central (Medium/Camp)                                                                                               -
FCI North Central (Medium/Camp)                                                                                               -
Total                                         1,864   1,795   2,628       -      -      -      -       -      -      -      6,287




This exhibit includes facilities requested, funded, or partially funded capacity requirements
through September 30, 2013.




   U.S. Department of Justice


                                                                      - 77 -
                 Other Information


OPERATING LEASES AS OF SEPTEMBER 30, 2013 (IN THOUSANDS)

                                                                                     Total Future
     Operating Lease Identifier                                                       Payments
     230 N First Avenue                                   Phoenix, AZ              $            469
     230 N First Avenue                                   Phoenix, AZ                           152
     255 E Temple Street                                  Los Angeles, CA                        12
     501 I Street                                         Sacramento, CA                        183
     2880 Sunrise Boulevard                               Rancho Cordova, CA                    630
     7338 Shoreline Drive                                 Stockton, CA                        5,798
     324 Horton Plaza                                     San Diego, CA                         325
     9692 Via Excelencia                                  San Diego, CA                         489
     11900 East Cornell Avenue                            Aurora, CO                         17,808
     320 First Street, NW                                 Washington, DC                     31,007
     500 First Street NW                                  Washington, DC                     25,204
     200 Constitution Avenue NW                           Washington, DC                        984
     3800 Camp Creek Parkway                              Atlanta, GA                         4,334
     450 S Federal Street                                 Chicago, IL                           483
     5270 S Cicero Avenue                                 Chicago, IL                         2,747
     55 E Monroe Street                                   Chicago, IL                           187
     200 W Adams Street                                   Chicago, IL                            42
     318 S Federal                                        Chicago, IL                           965
     Fourth & State Avenue                                Kansas City, KS                       870
     302 Sentinel Drive                                   Annapolis Junction, MD              5,186
     300 S Fourth Street                                  Minneapolis, MN                     2,165
     1222 Spruce                                          St. Louis, MO                         306
     1222 Spruce                                          St. Louis, MO                          45
     36 E Seventh Street                                  Cincinnati, OH                        297
     200 Chestnut Street                                  Philadelphia, PA                      222
     1000 Liberty Avenue                                  Pittsburgh, PA                        230
     600 Arch Street                                      Philadelphia, PA                       66
     701 Market Street                                    Philadelphia, PA                      325
     145 W. Thompson St.                                  Philadelphia, PA                    2,040
     701 Broadway                                         Nashville, TN                         216
     701 San Jacinto Street                               Houston, TX                            75
     701 San Jacinto Street                               Houston, TX                           357
     15431 W Vantage Parkway, Suites 200 & 205            Houston, TX                           131
     727 E Durango Boulevard                              San Antonio, TX                     1,209
     4211 Cedar Springs Road                              Dallas, TX                          7,877
     324 S State St                                       Salt Lake City, UT                     20
     Building A, 6810                                     Franconia, VA                         266
     796 N Foxcroft Avenue                                Martinsburg, WV                     2,332
                                                                                   $        116,054



 U.S. Department of Justice



                                                 - 78 -
